      MANAGEMENT OF THE COMMERCIAL OPERATIONS
       AND SUPPORT SAVINGS INITIATIVE PROGRAM


Report No. D-2001-082                   March 19, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
COSSI                 Commercial Operations and Support Savings Initiative
DDP                   Director, Defense Procurement
DUSD (S&T)            Deputy Under Secretary of Defense (Science and Technology)
OSD                   Office of the Secretary of Defense
O&S                   Operations and Support
                       Office of the Inspector General, DoD
Report No. D-2001-082                                                    March 19, 2001
   Project No. D2000AB-0113


                 Management of the Commercial Operations
                  and Support Savings Initiative Program

                                Executive Summary

Introduction. In FY 1997, the Joint Dual Use Applications Program Office began the
Commercial Operations and Support Savings Initiative program. The program goal
was to reduce operations and support costs by introducing commercial technology or
items into fielded military systems. Commercial technology or items is defined as a
product that has been sold, leased, or licensed to the commercial sector. Under the
guidance of the Director, Defense Research and Engineering, the Military Departments
issued 59 Commercial Operations and Support Savings Initiative projects with an initial
value of $186.2 million, $47.8 million, and $51.2 million for FYs 1997, 1999, and
2000, respectively. The DoD investment was $96.2 for FY 1997, $32.7 million for
FY 1999, and $35.5 million for FY 2000, with the balance representing contractor
contributions.

The Commercial Operations and Support Savings Initiative program is a two-stage
process. The first stage requires developing and testing a prototype of the commercial
technology to prove the technology’s application to a fielded military system. If
Stage 1 is successful, the Military Department initiates the second stage by procuring
and installing the commercial technology prototype into fielded military systems, thus
realizing the reduction of operations and support costs. To obtain Stage 1 prototype
development, the Military Departments awarded other transaction agreements as
authorized by the National Defense Authorization Act of FY 1994, section 845. The
other transaction authority was authorized to obtain technology from the commercial
sector that traditionally does not do business with DoD because of procurement
regulations. Stage 2 requires the use of Federal Acquisition Regulation contracting
procedures for the prototype procurement.

Objective. The audit objective was to evaluate the management of the Commercial
Operations and Support Savings Initiative program.

Results. There were several Commercial Operations and Support Savings Initiative
projects that transitioned without problems to either a traditional Federal Acquisition
Regulation Part 12 or 15 contract. However, the audit identified that improvements
were needed in program oversight and the issuance of prototype other transactions.

       •   COSSI projects are not subject to formal program management reviews or
           any type of performance measure to ensure that they are meeting COSSI
           objectives. As a result, 67 percent of the 30 FY 1997 COSSI-funded
           projects with a proposed operations and support savings of $3.25 billion had
           extended development periods, deviated from program objectives, or lacked
           procurement funds to acquire the prototype (finding A).
       •   Language used for prototype other transactions needed improvement. As a
           result, the Air Force paid $1.5 million in profits and fees and the Navy and
           Air Force called six other transactions fixed priced when there was
           cost-sharing. In addition, the Military Departments used agreement
           language in 51 of 59 FYs 1997, 1999, and 2000 other transaction
           agreements that did not require the delivery of a commercial prototype
           (finding B).

Summary of Recommendations. We recommend that the Director, Defense Research
and Engineering, establish a management oversight program for the Commercial
Operations and Support Savings Initiative program, issue guidance on the use of
program funds, establish a system to monitor the realization of cost savings, and
modify the program’s selection criteria to emphasize near-term cost savings.

We also recommend that the Director, Defense Procurement, issue policy in DoD
directives, instructions, or regulations for prototype other transactions that either
precludes or identifies when it is appropriated to provide profits and fees when there is
a cost sharing agreement, precludes the establishment of fixed-price other transactions
when cost sharing is negotiated, and clarifies the appropriate use of the terms, “support
and stimulate,” and “reasonable or best effort.”

Management Comments. The Deputy Under Secretary of Defense (Science and
Technology) and the Director, Defense Procurement, generally concurred with the
report recommendations and provided additional comments on the findings. The
Deputy Under Secretary of Defense (Science and Technology) stated that an annual
formal review process will be initiated that will establish a system for monitoring cost
savings. The Deputy Under Secretary partially concurred with the recommendation
concerning the use of program funds, stating that, although acquiring training with
program funds is inappropriate, obtaining technical data may be warranted. The
Deputy Under Secretary nonconcurred with emphasizing near-term cost savings, stating
that projected savings are based on present value, thereby already giving greater weight
to near-term savings.

The Director, Defense Procurement, partially concurred with the recommendations.
The Director stated that the Deputy Under Secretary of Defense (Acquisition,
Technology, and Logistics) issued an Other Transaction Guide a month after we issued
the draft report, which addressed the issues identified in the report; therefore, the
Director believed that additional guidance was not necessary.

Audit Response. Management comments were generally responsive to the
recommendations. We considered the comments of the Deputy Under Secretary of
Defense (Science and Technology) to the finding and made changes where appropriate.
However, we did not revise the tables of data in the report because the audit ended in
September 2000 and because the revision would not affect the recommendations
requiring increased management oversight. We request additional comments from the
Director, Defense Research and Engineering concerning acquiring training and
technical data with Commercial Operations and Support Savings Initiative funds, and
when a formal process will be instituted to track projects that transition to Stage 2
procurement. The additional comments should be provided by May 18, 2001. No
additional comments are required from the Director, Defense Procurement.




                                            ii
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                           1
     Objective                                                            2

Findings
     A. Commercial Operations and Support Savings Initiative Program      3
     B. Use of the Other Transaction Authority                           14

Appendixes
     A. Audit Process
          Scope and Methodology                                          19
          Prior Coverage                                                 20
     B. Summary of Military Department Commercial Operations and
           Support Savings Initiative Projects                           21
     C. Summary of Operations and Support Savings                        37
     D. Summary of FY 1997 and FY 1999 Performance Period and Status     45
     E. Comments of the Deputy Under Secretary of Defense (Science and
        Technology) on Finding A and Audit Response                      50
     F. Report Distribution                                              56

Management Comments
     Deputy Under Secretary of Defense (Science and Technology) and
       Director, Defense Procurement                                     59
Background
           In FY 1997, the Joint Dual Use Applications Program Office began
           administering and funding the Commercial Operations and Support Savings
           Initiative (COSSI) program to introduce commercial technology or items into
           fielded military systems. The Joint Dual Use Applications Program Office
           consisted of the Director, Defense Research and Engineering, the Military
           Departments, and the Defense Advanced Research Project Agency. Beginning
           in FY 1999, the responsibilities for the COSSI program transitioned to the
           Military Departments.

           Commercial Operations and Support Savings Initiative Program. The goals
           of the COSSI program are to reduce operations and support (O&S) costs that are
           associated with owning and operating a fielded military system by introducing a
           prototype commercial technology into that system. A commercial technology or
           item is defined as a product that has been sold, leased, or licensed to the
           commercial sector. The Military Departments issued 43 COSSI projects for
           FYs 1997 and 1999 and 16 COSSI projects for FY 20001 (Table 1).
           Appendix B identifies the individual projects. No funds were available for
           FY 1998.




       Table 1. Values of COSSI Projects Including DoD and Contractor Cost Share

                             FY 1997                       FY 1999 1                    FY 2000 1

                     Awards        Value ($)       Awards         Value ($)     Awards         Value ($)

      Army              10        52,674,838          3           8,299,260         4          9,177,590

      Navy              14        82,676,286          5          22,536,220         9         21,755,351

      Air Force         6         50,822,580          5          16,954,490         3         20,302,135

        Total           30        186,173,704         13         47,789,970        16         51,235,076




1
    OSD reported that the Military Departments issued 60 COSSI projects during FYs 1997, 1999, and
    2000. The difference of one project is represented by the Army’s issuing an FY 1998 modification to
    an FY 1997 COSSI agreement and OSD recording the modification as an FY 1999 COSSI project. This
    audit did not treat the FY 1998 modification as a new agreement. Also, differences in the number of
    awards reported by OSD in FYs 1999 and 2000 were because OSD recorded awards by the fiscal year
    of appropriation (funding) used to support the project; during the audit, we recorded the agreement in
    the fiscal year of the other transaction award.



                                                     1
    The Director, Defense Research and Engineering, annually issues a request to
    the commercial sector for COSSI proposals. Commercial firms submit COSSI
    proposals in response to a request from the Director, Defense Research and
    Engineering. The proposals are evaluated by the Military Departments based on
    six criteria: the potential O&S cost savings, military project manager
    commitment, technical and management approach, commercial technology
    leveraged, non-Federal cost share, and equivalent system performance.

    When the proposal is selected, it enters a two-stage COSSI process. Stage 1
    requires the contractor(s) to develop a prototype of the commercial technology
    for testing to determine its suitability for the military system. Stage 1 is
    typically a 12- to 24-month process and usually requires cost sharing between
    the contractor(s) and DoD. Upon successful completion of Stage 1, the Military
    Department that maintains or operates the military system for which the
    prototype was developed will decide whether to transition to Stage 2
    procurement. Stage 2 begins the production of the prototype and the realization
    of the O&S cost savings.

    Steering Committee. In the memorandum of August 15, 2000, “Establishment
    of a Steering Committee for COSSI,” the Office of the Under Secretary of
    Defense for Acquisition and Technology (now Acquisition, Technology, and
    Logistics) established a COSSI steering committee to enhance the link between
    the technology development and sustainment and readiness. The memorandum
    states that the steering committee will provide direction and oversight to ensure
    that the COSSI program objectives are being addressed.

    Prototype Other Transaction Authority. The National Defense Authorization
    Act of FY 1994, section 845, authorizes the use of the other transaction
    authority to allow for prototype projects that are directly relevant to weapons or
    weapon systems. The COSSI Stage 1 projects use the other transaction
    authority to obtain commercial technology from contractors who do not
    normally conduct business with DoD. Stage 2 requires the use of Federal
    Acquisition Regulation contracting procedures for the prototype procurement.


Objective
    The audit objective was to evaluate the management of the COSSI program.
    See Appendix A for a discussion of the audit scope and methodology.




                                         2
                    A. Commercial Operations and Support
                       Savings Initiative Program
                    COSSI projects are not subject to formal program oversight reviews or
                    any type of performance measure to ensure that projects are meeting
                    COSSI objectives. This condition exists because adequate management
                    oversight had not been established. As a result, 67 percent of the
                    30 FY 1997 COSSI-funded projects with a proposed operations and
                    support saving of $3.25 billion had one of the following:

                        •    extended development periods,

                        •    deviations from program objectives,

                        •    lack of procurement funds, and

                        •    training and technical data that were acquired prematurely.

                    In addition, only 4 of the 30 FY 1997 COSSI projects transitioned to
                    Stage 2, as of September 30, 2000, and Military Departments had not
                    determined whether any of the O&S savings were realized for the
                    transitioned projects.2


Program Goals
           The COSSI program was initiated to introduce commercial technology into
           fielded military systems to reduce O&S costs. The COSSI program defines
           commercial technology as “a product that is of a type customarily used for non-
           Government purposes and that has been sold or offered for sale, lease, or
           licensed to the general public. Included are commercial items that have had
           minor modifications to meet Federal Government requirements, but that have
           not significantly altered their non-governmental function or essential physical
           characteristics.” The COSSI guidelines state that the typical period for
           evaluating whether an existing commercial technology is applicable to a fielded
           military system is 12 to 24 months.

           Although COSSI projects were intended to quickly introduce commercial
           technology into fielded military systems, projects lacked procurement funds,
           commitment letters were inadequate, development periods were lengthy, and
           projects deviated from program objectives.




2
    The data cited in this report were as of September 2000, the end of the audit. Management comments to
    the draft report of February 8, 2001, reported that three additional projects transitioned to Stage 2
    procurement. We did not revise the report to reflect these projects, which were added after the end of
    the audit period because it would not change the overall audit conclusions.



                                                      3
Program Execution
  COSSI-sponsored development efforts had not transitioned to Stage 2
  procurements because Military Department project managers did not budget for
  Stage 2 procurements and because technical problems occurred during prototype
  development.

  Budgeting for Stage 2 COSSI Projects. Military Department project managers
  had not budgeted for COSSI Stage 2 procurements and therefore O&S cost
  savings were not achieved or savings will be deferred if the projects are
  successful. Of the 43 FYs 1997 and 1999 COSSI projects, 23 (53 percent) did
  not budget for Stage 2 procurement (Table 2).



   Table 2. FY 1997 and FY 1999 COSSI Projects Not Budgeted for Stage 2


                            Army            Navy        Air Force        Total

   1997 Projects            4 of 10       12 of 14        1 of 6        17 of 30
   Percent                    40             86             17             57

   1999 Projects            2 of 3         3 of 5         1 of 5         6 of 13
   Percent                    67             60             20             46


  Appendix D provides the budgetary status of FYs 1997 and 1999 projects.

  One of the causes of unfunded Stage 2 COSSI projects was inadequate financial
  commitment letters from Military Department project managers during the
  COSSI selection process. The COSSI program requires project manager
  commitment letters from the responsible official for the fielded military system.
  The COSSI guidelines require the commitment letters to:

         •   state that the Military Department supports the technical approach for
             the technology insertion into the fielded military system;

         •   state that the Military Department project manager supports the
             COSSI project through contributing facilities and equipment for
             testing the commercial prototype;

         •   state that the projected O&S cost savings will be realized without
             degrading the performance of the fielded military system; and

         •   demonstrate that the Military Department will have procurement
             funds available or are actively pursuing funds.




                                      4
       •   to address funding for Stage 2 to demonstrate they will have
           procurement funds available or are actively pursuing funds.

However, the commitment letters for 28 (65 percent) of 43 COSSI-approved
projects for FYs 1997 and 1999 did not contain statements that Stage 2
procurement funds were available to acquire the prototype commercial
technology. Review of the commitment letters by fiscal year and Military
Department is shown in Table 3.



      Table 3. FY 1997 and FY 1999 COSSI Projects with Inadequate
               Military Department Commitment Letters

                          Army            Navy        Air Force         Total

   1997 Projects          6 of 10       10 of 14        4 of 6        20 of 30
   Percent                  60             71             67             67

   1999 Projects          2 of 3         2 of 5         4 of 5         8 of 13
   Percent                  67             40             80             62


As a result of inadequate commitment letters and the unavailability of
procurement funds, three successful Stage 1 COSSI projects for the Navy and
Marine Corps did not transition to Stage 2 procurements. These three programs
are:

       •   the Acoustic Emission and Ultrasonic Testing for Periodic Inspection
           of Pneumatic Pressure Vessels (Agreement No. N00024-97-H-4194),

       •   the USMC Signal Intelligence/Electronic Warfare System
           Interoperability (Agreement No. M67854-97-C-2115), and

       •   the Laser Cladding Applications in the Operation and Support of
           Land Based Vehicles (Agreement No. M67854-97-C-2116).

As a result of the lack of Stage 2 procurement funds, the projected O&S cost
savings of $76.8 million will not materialize. Continued delays in funding these
successful Stage 1 projects increase the risk of technological obsolescence of the
commercial products adapted for military use. This is especially true where
commercial electronics and software are involved.

Officials in the Office of the Secretary of Defense (OSD) and the Military
Department COSSI program should require project managers to specifically
budget for COSSI Stage 2 procurements when submitting a COSSI proposal.
Formal Stage 1 reviews should be conducted annually to ensure that Military
Department project managers have adequately planned for Stage 2
procurements. If during these formal annual reviews it is determined that
project managers have not adequately planned for a Stage 2 procurement,
COSSI program officials should determine whether continued Stage 1 funding is
justified.

                                    5
           Status of FY 1997 COSSI Projects. The COSSI projects that transitioned to
           Stage 2 procurements during FY 1997 were limited, COSSI commercial
           prototypes had lengthy development periods, prototype developments deviated
           from the initial effort of proving a commercial technology, additional technical
           development in Stage 2 was required, and training and technical data were
           acquired during prototype development.

                  Procurements. Of the 30 COSSI projects funded in FY 1997,
           4 (13 percent) transitioned or will transition to Stage 2 Federal Acquisition
           Regulation (FAR) contract by September 2000. Of the remaining 26 projects:3
                   •   Sixteen projects were in Stage 1 for development.

                   •   Five projects completed Stage 1, but either the technology was no
                       longer needed or the commercial technology was inapplicable to the
                       military system.

                   •   Three projects were successful, however the project managers did
                       not have Stage 2 procurement funds.

                   •   One project proved a technology capability of producing a product
                       more efficiently and prime contractors in a subcontractor/vendor
                       relationship could acquire the product.

                   •   One project was terminated during Stage 1.

           Table 4 shows the number of FY 1997 COSSI projects that transitioned or will
           transition to Stage 2 FAR procurement.



                        Table 4. FY 1997 COSSI Projects That Transitioned or
                                   Will Likely Transition to Stage 2 Procurement
                                         Army             Navy          Air Force           Total

               Projects                 1 of 10          0 of 14           3 of 6          4 of 30


           Examination of the Stage 2 procurements identified that the Army and Air Force
           issued four FAR contracts or the Stage 1 technology was incorporated in a
           larger FAR contract. For the four FAR contracts, two were issued as FAR
           Part 12, “Acquisition of Commercial Items” and two were issued as a FAR
           Part 15, “Contracting by Negotiations” contracts. Appendix B identifies the
           FY 1997 projects that transitioned to a FAR contract.




3
    On February 8, 2001, the DUSD (S&T) reported that three other COSSI projects had transitioned to
    stage 2 contracts.



                                                    6
    Table 5. Operations and Support Projected Cost Savings for
             Projects That Transitioned to Productions

                           FAR Part 12               FAR Part 15

       Army               $819,900,000                       $0

       Air Force          $ 41,445,000              $175,401,400



        Length of Development Process. The COSSI guidance states that the
development and evaluation of a commercial technology for application to a
fielded military system should take 12 to 24 months because the proposed
commercial technology is already sold, leased, or licensed to the general public.
The 12- to 24-month timeframe is needed to perform the necessary
modifications and testing on the proposed military system. Our examination of
the COSSI projects identified that 25 of 30 projects for FY 1997 and 11 of
13 projects for FY 1999 had an initial Stage 1 performance period of up to
24 months (Appendix D). In addition, 15 (50 percent) of the 30 projects for the
FY 1997 performance period were extended beyond the initial negotiated
development periods (see Table 6).




         Table 6. FY 1997 Project Development Extensions

                                                 More Than
                          6–12 Months            12 Months

        Army                 3 of 10               4 of 10

        Navy                 0 of 14               5 of 14

        Air Force            2 of 6                1 of 6



With the technology already available to the general public, the extended
performance development periods for some COSSI projects indicate that the
commercial technology may not have been applicable to fielded military
systems. Projects with extended performance periods should be formally
examined to ensure that COSSI goals are still achievable.




                                      7
        Program Deviations. Although COSSI projects were initiated to
determine whether existing commercial technology was applicable to fielded
military systems, three projects deviated from the initial proposed efforts. The
following are examples of FY 1997 COSSI projects that deviated from the initial
objectives and savings.

                Switchable Eyesafe Laser Rangefinder Designator. The Army
Communications and Electronics Command issued agreement No. DAAB07-97-
9-D615 for the development of the Switchable Eyesafe Laser Rangefinder
Designator (the Designator). The Designator was planned to modernize the
helicopter mast mount sight of the Kiowa Warrior helicopter to improve
reliability and training. The initial development effort was for $5.9 million over
a 22-month period with an equal cost share. Due to technical problems
experienced with the diode subcomponent, technical efforts were redirected to
develop the diode subcomponent. During the project, the Army increased its
development funds by $9.9 million for a total cost of $15.8 million and the
development period was extended to 33 months. The Army Communications
and Electronics Command made two significant changes in the initial statement
of work and deviated from the initial proof-of-technology by developing a new
diode subcomponent for the Designator. As a result, the initial prototype effort
determined that the commercial technology proposal was not applicable to a
fielded military system; however, the Army continued development of the
Designator under the COSSI program that will result in the development of a
military unique item.

                Lithium Ion Polymer Batteries for Navy Underwater
Use. The Naval Sea Systems Command issued agreement No. N00024-97-H-
6398 for the development of the Lithium Ion Polymer Battery for Navy
underwater vehicles. The COSSI proposal was to develop a battery that would
last 5 times longer than existing battery for three unmanned underwater vehicle
programs. The COSSI effort was for $5.9 million, with a COSSI cost share of
$3.4 million for battery development, over a 24-month period. The battery
development experienced technical and manufacturing difficulties because the
contractor underestimated production costs, resulting in a 17-month delay and
doubling the Stage 2 procurement battery costs for the three unmanned
underwater vehicle programs. The COSSI project was approved based on a
proposed $60 million O&S cost savings for the three program vehicles.
However, two program offices indicated that they would not procure the
batteries in Stage 2 due to increased battery costs and the lack of program funds,
which resulted in lost potential O&S cost savings of $35.8 million. In addition,
because of the reduced production quantities, battery costs for the third vehicle
program doubled, thereby reducing O&S cost savings by $15.3 million. As a
result, $51 million (85 percent) of the originally proposed $60 million O&S cost
savings will not be realized.

AN/BQR-22A Sonar Program. The Naval Sea Systems Command issued
agreement No. N00024-97-H-6244 to introduce commercial-off-the-shelf
technology into the AN/BQR-22A receivers on Navy submarines. The other
transaction agreement was valued at $4.1 million, with COSSI providing
$3.1 million over an initial development period of 18 months. However, the
sonar receiver system is being replaced by a new Acoustic-Rapid Contractor Off
the Shelf Insertion (A-RCI) sonar system, and program officials stated that they


                                    8
will no longer need the prototype technology developed under the COSSI
program. The AN/BQR-22A Sonar program manager indicated that the COSSI
project should have been terminated; however, the recommendation was not
supported by senior management officials. As a result, Navy program officials
continued to expend COSSI funds to upgrade the existing sonar receiver, even
though the technology was no longer needed and the O&S cost savings of
$10.5 million would not be realized.

        Continued Prototype Development. Three COSSI projects did not
meet the COSSI objective of proving the technology application in Stage 1
because the COSSI projects needed continued prototype development before a
Stage 2 procurement contract could be awarded. For example, the Naval Air
Systems Command issued a COSSI project, “Commercially Based Processing
for T-45TS,” agreement No. N00019-99-9-1662, valued at $9.8 million, to
replace the instrumentation displays of aircraft functions. In Stage 1, program
officials were to replace the existing display processor and legacy software with
a commercially designed mission display processor. However, the prototype
development hardware would be complete during Stage 1, but further software
and testing would be required in Stage 2 that was not funded at the time of the
audit. Subsequently, Navy program officials were successful in obtaining
funding for the software changes during Stage 1. Navy program officials stated
that additional software testing is required in Stage 2, however, funding has
been identified.

        Training and Technical Data Acquisition. The COSSI funds were
used to acquire training and technical data during Stage 1 even though the only
purpose of Stage 1 is to prove the applicability of a commercial technology to
fielded military systems. The Marine Corps issued an other transaction
agreement for the development of a SIGINT/EW system, No. M67854-97-C-
2115, valued at $3.8 million with equal cost shares. The effort was to provide
message format and protocol translation functions using dissimilar software on a
single processor; however, the Marine Corps included in the agreement a
requirement for training and technical data valued at $105,000. The acquisition
of training and technical data was inappropriate for a COSSI Stage 1 agreement
because the application of the technology had not been determined. The
acquisition of the training and technical data should have occurred during the
Stage 2 procurement.

Conclusion. The OSD and Military Department COSSI program officials
monitor COSSI projects by requesting status reports from the Military
Department project managers. Few projects have transitioned to Stage 2
procurements, COSSI projects had extended periods of development, deviated
from the initial COSSI objectives, and COSSI funds were used to acquire
training and technical data inappropriate for the Stage 1 development. The OSD
needs to establish management controls to provide oversight of the COSSI
program to ensure that funded projects do not unjustifiably deviate from the
COSSI program goals.




                                    9
Operations and Support Cost Savings
           The primary objective of the COSSI program was to reduce O&S costs of
           fielded military systems. Although COSSI officials evaluated proposals based
           on projected savings, a significant amount of the cost savings were attributed to
           the out-years. Also, COSSI program officials did not establish a measurement
           system to determine whether projected COSSI O&S cost savings were realized.

           Projected Operations and Support Cost Savings. As part of the proposal
           selection process, COSSI projects are evaluated based on a 10-year projection of
           O&S cost savings if the technology is introduced in fielded military systems.
           Projected O&S cost savings for FYs 1997 and 1999 totaled $4.4 billion and
           $1 billion, respectively. Tables 7 and 8 show the percent of projected O&S cost
           savings for three incremental periods.




                      Table 7. Percent of FY 1997 Projected O&S Cost Savings

                                              Years 1-3       Years 4-6       Years 7-10

                       Army                        17              31             52

                       Navy                        10              34             56

                       Air Force                   22              30             48




                      Table 8. Percent of FY 1999 Projected O&S Cost Savings
                                              Years 1-3       Years 4-6       Years 7-10

                       Army                        504             24             26

                       Navy                         4              31             65

                       Air Force                    9              36             55



           As illustrated in Tables 7 and 8, the majority of the projected O&S cost savings
           were in the out-years. Appendix B provides the proposed O&S cost savings for
           the individual COSSI projects. COSSI projects that have substantial savings in

4
    One of the three Army projects had 51 percent of its projected savings in the first 3 years.



                                                        10
    the out-years are less likely to materialize because of program uncertainties; for
    example, changes in program priorities, budget constraints, and changing
    technology. Guidance for selecting COSSI projects should emphasize savings in
    the near term as opposed to the out-years. The OSD should modify the COSSI
    criteria and emphasize COSSI projects with proposed near-term savings.

    Government Performance and Results Act. The Government Performance
    and Results Act requires that performance be measured throughout DoD;
    however, OSD and Military Department COSSI officials had not developed a
    formal process to measure the success of the COSSI program. Projects funded
    by COSSI had projected savings of $4.4 billion for FY 1997 and $1 billion for
    FY 1999, and $7.1 billion for FY 2000. With an initial projection of
    $12.5 billion O&S cost savings, OSD, in coordination with the Military
    Departments, should develop a formal process to track and measure O&S cost
    savings. After 36 months, the Military Department had not determined whether
    any of the O&S savings occurred. Establishing such a system would enable
    COSSI officials to determine whether goals are being achieved and provide
    information to justify further expansion of the program.


New Contractor Participation
    The COSSI program uses the other transaction authority to attract technology
    from commercial firms who do not provide services to DoD (new contractors).
    The other transaction authority removes many of the acquisition regulations
    normally established for contracts including the Federal Acquisition Regulation,
    the Defense Federal Acquisition Regulation Supplement, and cost accounting
    principles. The COSSI program uses the other transaction authority to obtain
    commercial technology from the commercial sector; however, as shown in
    Table 9, the majority of contractors identified in the COSSI agreements were
    traditional DoD contractors.



                                Table 9. COSSI Contractors

                      30   27
                      25
                                                                    Traditional
                      20
                                         13            13
          Contractors 15        7
                      10                      6             6       Non-traditional (New
                                                   0                Contractors)
                       5            0                           1
                       0                                            Non-profit
                           1997           1999         2000
                                        Fiscal Year




                                              11
    Of the 59 COSSI agreements issued in FYs 1997, 1999, and 2000,
    45 agreements were issued to traditional defense contractors as the only prime
    contractors. Although the other transaction authority for the COSSI program
    did not achieve its intended objective of attracting commercial technology from
    the commercial sector (nontraditional contractors); the use of the other
    transaction authority apparently was successful in helping the Military
    Departments to negotiate cost share with participating contractors and reduce
    DoD prototype development costs.

    Defense Procurement officials believe that the nontraditional contractor
    participation was more than identified in Table 9. The increased participation is
    attributed to the inclusion of nontraditional contractors that participated in the
    COSSI agreements as subcontractors. Of the 59 COSSI agreements,
    20 agreements included a nontraditional contractor as the prime or
    subcontractor. We did not include subcontractors in Table 9 because the COSSI
    agreement relationships are between the Military Departments and the prime
    contractors.


Management Comments on the Finding and Audit Response
    The Deputy Under Secretary of Defense (Science and Technology) (DUSD
    (S&T)) responded to the audit report for the Director, Defense Research and
    Engineering, and provided extensive comments to the finding. Appendix E
    summarizes the comments and provides an audit response.


Recommendations, Management Comments, and Audit
Response
    A. We recommend that the Director, Defense Research and Engineering:

           1. Establish a management oversight program for the Commercial
    Operations and Support Savings Initiative that requires a formal review of
    Stage 1 funded projects annually. The formal annual reviews should
    include an examination of the status of Stage 1 funded projects to determine
    whether the projects are progressing as initially proposed, whether the
    projects deviated from the modification of existing commercial technology,
    and whether Military Department project managers took adequate actions
    for the Stage 2 procurement.

    Management Comments. The Deputy Under Secretary of Defense (Science
    and Technology) (DUSD (S&T)) responded to the audit report for the Director,
    Defense Research and Engineering. The DUSD (S&T) concurred and stated
    that COSSI projects are reviewed periodically through data calls to determine
    project status. The DUSD (S&T) stated that a web-based monitoring and
    tracking system is being developed; that the Military Departments conduct
    reviews; and that a more formal review process will be initiated on an annual
    basis.


                                        12
         2. Issue guidance that precludes the use of Stage 1 funds for obtaining
training and technical data.

          Management Comments. The DUSD (S&T) partially concurred. The
DUSD (S&T) stated that it is not appropriate to acquire training with Stage 1 funds;
however, acquiring technical data may be necessary to acquire the prototype from
other than the Stage 1 contractor although such a scenario is unlikely. The DUSD
(S&T) stated that DoD should retain flexibility to obtain technical data if such data
are in the best interest of DoD.

          Audit Response. The comments of the DUSD (S&T) are partially
responsive to the recommendation, and we agree that there may be instances in which
obtaining technical data during Stage 1 may be appropriate. However, the response
did not identify when guidance would be issued. Therefore, we request that DUSD
(S&T) provide comments to the final report that identify whether policy will be issued
that preclude the use of Stage 1 funds for training, and that state when it is
appropriate to acquire technical data.

         3. Establish a formal process to track operations and support cost
savings for the Commercial Operations and Support Savings Initiative projects
that have transitioned to a Stage 2 procurement.

         Management Comments. The DUSD (S&T) concurred, and stated that the
Steering Committee will provide COSSI oversight and will address this issue.

          Audit Response. The comments of DUSD (S&T) are partially responsive
to the recommendation. However, the comments did not identify when a formal
process to track operations and support cost saving would be established. Therefore,
we request additional comments to the final report on when the tracking process will
be established.

         4. Modify selection criteria for the Commercial Operations and Support
Savings Initiative project to emphasize the selection of proposals that project
near-term cost savings.

          Management Comments. The DUSD (S&T) nonconcurred and stated that
COSSI project proposals are ranked using net present value, and, accordingly,
projects with near term-savings are given greater weight than projects with out-year
savings. DUSD (S&T) stated that no savings can occur until the prototype is inserted
in the system and that it is unlikely to have any significant savings during the first few
years of a project.

          Audit Response. Although DUSD (S&T) nonconcurred with the
recommendations the overall comments address the issue. We were aware of the
COSSI evaluation process using net present value; however, as identified in Tables 6
and 7, large cost saving projects are in the out-years where the status of weapon
systems and technologies are unknown. Near-term savings projects should be
emphasized because of program uncertainties and funding levels and changes in
priorities. However, the recent creation of the COSSI Steering Committee and the
establishment of a formal COSSI process to track operations and support cost savings
should assist management in identifying whether and when actual savings materialize
and should be the basis of initiating future management changes to the program.


                                       13
           B. Use of the Other Transaction
              Authority
           Language used for prototype other transactions needed improvement.
           These conditions exist because policy guidance for prototype other
           transactions was not issued. As a result, the Air Force paid $1.5 million
           in profits and fees and the Navy and Air Force called six other
           transactions fixed priced when there was cost-sharing. In addition, the
           Military Departments used agreement language in 51 of 59 FYs 1997,
           1999, and 2000 other transactions that did not require the delivery of a
           commercial prototype.


Background
    Prototype Other Transactions. The National Defense Authorization Act of
    FY 1994, section 845, allows the use of the other transaction authority for
    prototype projects directly relevant to military systems. Section 845 was a
    3-year pilot program that allowed the Defense Advanced Research Projects
    Agency to use the other transactions for prototype projects. The National
    Defense Authorization Act of FY 1997, section 804, extended the authority to
    the Secretaries of the Military Departments and other officials designated by the
    Secretary of Defense. The authority to use other transactions for prototypes has
    been extended several times, most recently by the Floyd D. Spence National
    Defense Authorization Act for FY 2001 to September 30, 2004. The COSSI
    program used the prototype other transaction authority to determine whether an
    existing commercial product or technology was applicable to a military system
    with the goal of reducing O&S costs. The prototype other transaction authority
    is limited to developing a prototype of the proposed system and subsequent
    production quantities must use a Federal Acquisition Regulation contract.

    DoD Guidance for Using Other Transaction Prototype Agreements. The
    Under Secretary of Defense for Acquisition and Technology (now Acquisition,
    Technology, and Logistics) issued guidance on the use of prototype other
    transactions in a December 14, 1996, memorandum, “10 United States
    Code 2371, section 845, Authority to Carry Out Certain Prototype Projects.”
    The memorandum implemented statutory requirements, established reporting
    requirements, and emphasized the importance of good business sense and
    appropriate safeguards to protect the Government’s interest. In October 1997,
    the DDP issued a memorandum providing guidance for assigning identification
    numbers and collecting data for section 845 other transactions. On October 23,
    1998, DDP issued a memorandum in response to Inspector General, DoD, to
    adjust payable milestone when necessary, ensure receipt of progress reports, and
    to ensure that final technical reports are sent to a central depository. The Under
    Secretary of Defense (Acquisition, Technology, and Logistics) issued a policy
    memorandum and Other Transactions Guide on December 20, 2001, providing
    guidance on the use of prototype other transactions.




                                        14
COSSI Project Management
    The Air Force paid profits and fees on five prototype agreements that included
    cost sharing, the Navy and Air Force awarded fixed-price COSSI agreements
    for the development of prototypes that included cost sharing, and the Military
    Departments issued COSSI agreements that used “support and stimulate” and
    “reasonable or best efforts” language in the agreements that is appropriate for
    research efforts but not for prototype development.

    Profits and Fees. Air Force agreement officers inappropriately paid profits and
    fees to contractors in prototype other transactions that included cost sharing.
    Stage 1 COSSI agreements require that Government and industry share the cost
    in the development, manufacture, and delivery of the commercial prototype for
    a military system. Contractors are willing to share costs because of the potential
    future production contract if the commercial prototype is successful for military
    system introduction. The Air Force agreement officers paid $1.5 million in
    profits or fees on four FY 1997 other transactions and one FY 1999 COSSI
    other transaction. For example, the Air Force issued a COSSI other transaction
    for $2,088,457 with a Government cost share of $1,485,190, a contractor cost
    share of $603,267, and a fee of $164,296 for the development of Mini-MUTES
    replacement processor demonstration. The contracting officer stated that the fee
    paid was adequate because the contractor was assuming some risk and that the
    guidance did not prohibit awarding a fee in cost share prototype other
    transactions. We believe that awarding profits or fees is inappropriate in cost
    share prototype other transactions because it mitigates the cost share
    contribution by the contractor(s). The Army and the Navy other transactions
    did not provide for profits or fees in their COSSI agreements.

    The FYs 1997 and 1999 COSSI program solicitations were silent of the issue of
    Stage 1 profits and fees. The FY 2000/2001 COSSI program solicitation stated
    that the foregone profits and fees were considered an unacceptable cost share
    amount. The DDP guidance states that profit or fee is permitted for awardees of
    other transactions for prototype projects; but generally should not be permitted
    on cost share projects. However, we believe that awarding profits or fees is
    inappropriate for cost share other transactions. DDP should issue guidance that
    precludes the award of profits or fees, or identify when the award of profits and
    fees is permissible under a cost share other transaction.

    Fixed-Price Other Transactions. The Navy and Air Force issued cost sharing
    other transactions under the COSSI program and called them fixed price.
    Fixed-price contracts or agreements establish a set price for acquiring items or
    services and do not include cost sharing. However, the COSSI Stage 1 program
    requires contractor(s) to share in the cost of the development, manufacture, and
    delivery of a commercial item or technology prototype to determine the
    prototype’s application to a fielded military system. At the time of an other
    transaction award, the cost and risk of the prototype development is not fully
    known, therefore, calling a cost sharing agreement fixed price appears to be
    inappropriate. The other transactions are fixed funded because both sides
    limited their financial exposure.




                                        15
In FYs 1997, 1999, and 2000, Navy and Air Force agreement officers issued
six firm-fixed-price or fixed-price-payable milestones other transactions. Those
other transactions contained cost sharing and therefore should not have been
considered fixed priced or payable because the total cost associated with the
development of the prototype was not fully known. A cost share other
transaction establishes a ratio of cost sharing that must be maintained to enforce
the terms of the agreement. The cost of the prototype development is not
known until after the development effort is complete; therefore, it is
inappropriate for agreement officers to issue prototype other transactions with
cost sharing that are considered fixed price. For example, the Naval Air
Systems Command issued a COSSI other transaction for $1,629,866, with the
Navy cost share of $1,142,900 and the contractor cost share of $486,966, for
the development of multi-functional control and display unit for the E-2C
aircraft. The FY 1999 agreement states that the Navy will pay the contractor
the Navy’s agreed cost share regardless of the contractor’s actual incurred costs;
however, the cost associated with this ongoing effort is not fully known and the
cost share percentage established in the agreement may not be maintained if the
actual cost is either more or less than the negotiated $1,629,866. The Army did
not issue any fixed-price COSSI prototype other transactions.

Military Department agreement officers were not provided guidance that stated
that agreement officers should not consider prototype other transactions as fixed-
price agreements if the agreement includes cost sharing. It is appropriate for an
acquisition to be fixed price if the risk is low. However, the concept of sharing
risk is gone if costs and contractor expenditures are not fully known.
Therefore, DDP needs to issue guidance that precludes calling an other
transaction fixed price if there is cost sharing.

Agreement Language. The Military Department agreement officers issued
COSSI prototype other transactions with inappropriate language for prototype
development. COSSI other transactions are issued to develop, manufacture, and
deliver a prototype for commercial item or technology for testing to determine
the prototype’s applicability to a fielded military system. However, 51 of
59 COSSI other transactions issued in FYs 1997, 1999, and 2000 stated that the
principal purposes of the other transactions were to “support and stimulate” or
to provide “reasonable or best effort” to qualify a product for insertion into
fielded DoD military systems. The use of the terms “support and stimulate”
and “reasonable or best effort” are used in assistance agreements and
acquisitions when acquiring basic and applied research to advance a study of
knowledge, with an end product being a research report discussing the results of
the effort. COSSI is funded with engineering and manufacturing funds that are
used to demonstrate systems capabilities. Since the end product of a COSSI
other transaction is the delivery of a prototype for testing in a fielded military
system, these terms are inappropriate for prototype agreements and could lead to
confusion and disputes. Military Department agreement officers may be using
these terms because they lack guidance and training on issuing prototype other
transactions, and the agreements officers are using an other transaction template
issued by Defense Advanced Research Project Agency for research agreements
(as opposed to a prototype agreement). Therefore, DDP needs to issue guidance
that addresses the use of the terms “support and stimulate” or “reasonable or
best effort” for prototype other transactions.



                                    16
Management Comments on the Finding and Audit Response
    Management Comments. The DDP stated that the Under Secretary of Defense
    (Acquisition, Technology, and Logistics) issued an updated policy memorandum
    and Other Transactions Guide on December 20, 2001. The guide was
    developed in coordination with Inspector General, DoD, and successfully
    resolved identified areas of concern. In addition, the Other Transactions Guide
    incorporated changes to address preliminary Inspector General, DoD, issues
    identified during the COSSI audit. The DDP stated that, as a result, this part of
    the report should be eliminated or significantly revised because the new Other
    Transaction Guide obviates the need for the policy recommendations.

    The DDP stated that Section 803 of the FY 2001 Authorization Act requires that
    at least one-third of the total cost of a prototype other transaction be provided by
    non-Federal parties. Thus by such a definition, a prototype other transaction is
    not fixed-price and the new other transaction guide recognizes that. The DDP
    also stated that cost and risk associated with prototype development can support
    the negotiation of a fixed-price agreement. Though the cost and risk is never
    fully known, it is possible to establish a fixed-price if the risk, cost, and effort is
    reasonably understood and can be realistically priced. The DDP stated that cost
    share could be implicit in a fixed-price agreement or could be structured to
    provide a given amount or other formula for cost share. The DDP stated that it
    is not appropriate to conclude that contractor contribution establishes a ratio of
    cost sharing that must be maintained.

    Audit Response. The Inspector General, DoD, has issued several reports on
    prototype other transactions, as identified in the Prior Coverage section of this
    report. Those audit reports made numerous recommendations to issue prototype
    other transaction guidance and identified specific policy issue areas. During the
    COSSI audit, we discussed issues identified during the audit that needed
    additional guidance with the responsible DDP official. We commend the DDP
    for issuing the Other Transaction Guide and including changes recommended by
    this report. The Guide addresses the areas of concern as well as the
    requirements in section 803 of the Floyd D. Spence National Defense
    Authorization Act for FY 2001. We have modified the final report as
    suggested, where appropriate.


Recommendations, Management Comments, and Audit
Response
    B. We recommend that the Director, Defense Procurement, issue policy in
    DoD directives, instructions, or regulations for prototype other transactions
    that:

           1. Identifies when it is appropriated to provide payment of profits
    and fees in a cost sharing agreement.




                                          17
Management Comments. DDP partially concurred, and stated that the Other
Transaction Guide provides new guidance stating that profits or fees generally
should not be permitted on cost-share other transaction. In addition, COSSI
management officials agree that profit and fee payment is inappropriate for cost
share projects and that future COSSI solicitations will clarify this issue.

       2. Precludes calling other transactions fixed price when cost sharing
is negotiated.

Management Comments. The DDP partially concurred, and stated that the
Other Transaction Guide identifies that agreements that require cost sharing by
definition are not fixed price. However, the DDP stated that a fixed price could
be negotiated for a defined requirement short of the total estimated amount,
without the agreements identifying a specific cost share amount or percentage
from the contractor. The DDP stated that this is comparable to a Federal
Acquisition Regulations contract where a firm fixed price is established for less
than estimated value, thus implicitly recognizing cost share, but still regarding
the contract as fixed price.

      3. Clarifies the appropriate use of terms, “support and stimulate,”
and “reasonable or best effort.”

Defense Procurement Comments. The DDP partially concurred, and stated
that the Other Transaction Guide states that “support and stimulate” are
inappropriate terms in prototype other transactions. The DDP also stated that
the Other Transaction Guide states that “reasonable or best efforts” terms can be
used toward a defined prototype project.




                                   18
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the overall management of the COSSI
    program as awarded under the other transaction authority. We evaluated
    30 COSSI other transactions awarded in FY 1997 and 13 COSSI other
    transactions awarded in FY 1999 to determine whether the other transactions
    were achieving the COSSI objectives of introducing commercial technology and
    reducing O&S costs. We conducted a limited review of the 16 COSSI other
    transactions awarded in FY 2000.

    We interviewed project managers, contracting officers, and contracting officer
    technical representatives for FY 1997 and FY 1999 COSSI projects. We
    examined documentation for each of the COSSI projects, including the basic
    agreements and modifications, proposals, and other contracting and project
    documentation. We did not question the proposals’ technical merits or evaluate
    the contractor cost proposals and projected savings for validity. We did not use
    computer-processed data to perform this audit.

    We performed this program results audit from March 2000 through
    September 2000, in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD. Our scope was limited in that we did not include tests of
    management controls. However, the conditions identified in this report are
    attributed to the lack of management controls over the COSSI program. The
    recommendations in finding A for establishing a management oversight program
    will correct the conditions cited in the report and help to ensure that the COSSI
    program will achieve its established objectives.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

           •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (00-DoD-2)




                                        19
             •   FY 2000 Subordinate Performance Goal 2.4: Meet combat forces’
                 needs smarter and faster, with products and services that work better
                 and cost less, by improving the efficiency of DoD acquisition
                 processes. (00-DoD-2.4)

      DoD Functional Area Reform Goals. DoD did not establish performance
      improvement reform objectives and goals for this functional area.

      High-Risk Area. The General Accounting Office has identified several high-
      risk areas in DoD. This report provides coverage of the defense acquisition
      management high-risk area.


Prior Coverage
      During the last 5 years, the General Accounting Office and the Inspector
      General, DoD, issued five reports discussing other transactions. There have
      been no prior audits of the COSSI program. Unrestricted General Accounting
      Office reports can be accessed over the Internet at http://www.gao.gov.
      Unrestricted General Inspector General, DoD, reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.

General Accounting Office

      GAO Report No. NSIAD-00-33 (OSD Case No. 1944), “Acquisition Reform,
      DoD’s Guidance on Using Section 845 Agreements Could be Improved,”
      April 7, 2000

      GAO Report No. NSIAD-96-11 (OSD Case No. 1074), “DoD Research,
      Acquiring Research by Nontraditional Means,” March 29, 1996

Inspector General, DoD

      Inspector General, DoD, Report No. D-2000-065, “Costs Charged to Other
      Transactions,” December 27, 1999

      Inspector General, DoD, Report No. 98-191, “Financial and Cost Aspects of
      Other Transactions,” August 24, 1998

      Inspector General, DoD, Report No. 97-114, “Award and Administration of
      Contracts, Grants, and Other Transactions Issued by Defense Advanced
      Research Projects Agency,” March 28, 1997




                                         20
Appendix B. Summary of Military Department
            Commercial Operations and
            Support Savings Initiative Projects

Army FY 1997
    Dual Application Growth Rotor Blade Program (Agreement No. DAAB07-
    97-9-D020). The intent of this effort is to develop a qualified and functional
    Growth Rotor Blade for the Black Hawk helicopter. The Growth Rotor Blade
    project will also result in a wide chord composite main rotor blade for use on
    special mission Black Hawk helicopters as well as other commercial and
    military helicopters. The new composite blade will provide for greater design
    flexibility and is intended to achieve better aerodynamic performance, while at
    the same time reduce cost of ownership through low acquisition cost, increased
    reliability, and better maintainability.

    Project Status: Agreement value $8,972,774.
    Cost share: DoD $4,486,387/Contractor $4,486,387.
    Project start date September 19, 1997. Performance period 24 months.
    Additional 9 months needed to complete project.
    Stage 1 in process. Stage 2 budgeted.

    Polymeric Tray Kit (Agreement No. DAAB07-97-9-D322). The intent of this
    effort is to provide the Army and Marine Corps with an alternative group-
    serving food container to the steel traycan currently being phased out.

    Project Status: Agreement value $572,363.
    Cost share: DoD $515,126/Contractor $57,237.
    Project start date September 29, 1997. Performance period 12 months.
    Project was terminated.

    Switchable Eyesafe Laser Rangefinder Designator (Agreement
    No. DAAB07-97-9-D615). The intent of this effort is to develop a prototype to
    replace the Kiowa Warrior’s current laser beam system. The Switchable
    Eyesafe Laser Rangefinder Designator will contain state-of-the-art, diode
    pumped (all solid state), dual frequency laser designator/rangefinder based on
    commercial diode lasers, thermal electric cooler, non-linear optics, and
    electronics technology. This new design laser adds a switchable dual frequency
    capability to improve targeting designation performance.




                                       21
Project Status: Agreement value $5,893,834.
Cost share: DoD $2,946,917/Contractor $2,946,917.
Additional $9,919,334 was added by various program offices.
Project start date September 12, 1997. Performance period 22 months.
Additional 11 months needed to complete project.
Stage 1 in process. Stage 2 not budgeted.

Dynamic Private Virtual Networks (Agreement No. DAAB07-97-9-E312)
The intent of this effort is to develop a method so that a single workstation can
access various levels of information in either a stand-alone or a network mode
of operation. This Dynamic Virtual Network will be developed at a low-cost,
easy to install, and simple to operate method of converting from unclassified to
classified operations. This system will be compatible with existing classified
and unclassified systems and networks.

Project Status: Agreement value $882,000.
Cost share: DoD $413,500/Contractor $468,500.
Project start date September 22, 1997. Performance period 18 months.
Additional 17 months needed to complete project. Project completed
November 16, 2000.
Stage 1 complete. Stage 2 not budgeted and a decision was made not to
proceed.

Heads Up Display (Agreement No. DAAB07-97-9-E313). The intent of this
effort is to replace the Cathode Ray Tube display of the Aviator’s Night Vision
Imaging Systems/Heads Up Display with a flat panel display. The program will
use commercial flat panel display technology to develop a display unit that is
capable of demonstrating equivalent performance to the current display.

Project Status: Agreement value $817,967.
Cost share: DoD $764,241/Contractor $53,726.
Project start date September 22, 1997. Performance period 15 months.
Additional 18 months needed to complete project.
Stage 1 in process. Stage 2 not budgeted.
Mainframe Computer Replacement for Guardrail Common Sensor
(Agreement No. DAAB07-97-9-E314). The intent of this effort is to migrate
the current main system computer software baseline to a commercial Open
System Environment, allowing the software capability to be sent across
platforms, thus enabling off the shelf processor upgrades and lowering the life-
cycle cost of maintaining old hardware and software. This software will also
serve as the baseline for the Aerial Common Sensor Intelligence Collection
System development while reducing risk and adding flexibility to the current
product improvements for the Guardrail Common Sensor fielded systems.

Project Status: Agreement value $4,437,747.
Cost share: DoD $4,026,235/Contractor $411,512.
Project start date September 24, 1997. Performance period 18 months.
Additional 15 months needed to complete project. Stage 1 complete but due to
technology obsolescence the project did not transition to a Stage 2 FAR
procurement.



                                    22
Advanced Flight Control Computer (Agreement No. DAAB07-97-9-E315).
The intent of this effort is to use existing commercial processes/architectures to
provide a Form-Fit-Function-Interface replacement of the Black Hawk Stability
Augmentation System/Flight Path Stabilization computer while providing
significant operation and support savings. This proposed computer will be
designed as a direct replacement unit, thus, it will interface directly to the
existing computer mounting tray and electrical connectors already on the
aircraft. No aircraft modifications are required for the installation and use of
this computer.

Project Status: Agreement value $3,817,725.
Cost share: DoD $3,122,725/Contractor $695,000.
Project start date September 23, 1997. Performance period 22 months.
Additional 11 months needed to complete project.
Stage 1 in process. Stage 2 budgeted.

Affordable Apache Rotor System (Agreement No. DAAB07-97-9-J046). The
intent of this effort is to use best commercial processes and practices to produce
a new rotor system for the current Apache rotor system that will meet
affordability goals and improve performance for future, heavier helicopter
versions. This is to be accomplished using the design and processes of the
fiberglass rotor blade commercial helicopter.

Project Status: Agreement value $22,410,378.
Cost share: DoD $11,205,189/Contractor $11,205,189.
Project start date September 30, 1997. Performance period 36 months.
Stage 1 in process. Stage 2 budgeted.

Composite Semitrailer Van (Agreement No. DAAB07-97-9-J047). The intent
of this effort is to provide a replacement for the semitrailer van systems being
retired. This project will cost less to purchase, cost less to operate, and weighs
less than the steel chassis and aluminum van body systems being retired.

Project Status: Agreement value $1,600,000.
Cost share: DoD $900,000/Contractor $700,000.
Project start date September 18, 1997. Performance period 18 months.
Additional 21 months needed to complete project. Project was terminated in
December 2000.
Stage 1 complete. Stage 2 was not budgeted.

Modification to the Movement Tracking System Satellite Communication
System (Agreement No. DAAB07-97-9-J048). The intent of this effort is to
develop a Movement Tracking System terminal that is capable of operating over
commercial satellite systems and will permit world-wide tracking and two-way
data communications. This program will expand the network management
functionality to enable multiple echelons of DoD personnel to obtain access to
the information. This program will also improve the application interfaces to
the satellite terminals to enable the DoD to interface new and different sensor
and other electronic technologies. The development was expanded in FY 1999
to miniaturize the Movement Tracking System into a hand-held unit.




                                    23
    Project Status: Agreement value $3,270,050.
    Cost share: DoD $1,635,025/Contractor $1,635,025.
    Additional $1,078,790 was added by the program office.
    Project start date September 24, 1997. Performance period 19 months.
    Additional 2 months needed to complete project.
    Stage 2 in process, a FAR Part 12, Acquisition of Commercial Items contract
    was issued.


Army FY 1999
    A Common Interoperable Integrated Mechanical Diagnostics/Health Usage
    Management System (Agreement No. DAAH10-99-9-0001). The intent of
    this effort is to determine the cost benefits/deficits of the health usage
    management system installed on the H-60 helicopter fleet. In addition, the
    effort is to evaluate the interoperability with the equivalent Navy system and the
    ground station supporting the Sikorsky civil fleet.

    Project Status: Agreement value $5,646,592.
    Cost share: DoD $4,128,694/Contractor $1,517,898.
    Project start date August 30, 1999. Performance period 24 months.
    Stage 1 in process. Stage 2 not budgeted.

    The Improved Remotely Monitored Battlefielded Sensor Systems
    (I-REMBASS) Repeater (Agreement No. DAAB07-99-9-D286). The intent
    of this effort is to provide a state-of-the-art Repeater, capable of integration
    within existing sensor systems, yet containing the design flexibility to support
    the advanced communications requirements of future systems.

    Project Status: Agreement value $655,508.
    Cost share: DoD $458,855/Contractor $196,653.
    Project start date August 20, 1999. Performance period 12 months.
    Stage 1 in process. Stage 2 budgeted.

    Sand Erosion Resistance Kits for Auxiliary Power Unit on Apache/Longbow
    Helicopter (Agreement No. DAAB07-99-9-K762). The intent of this effort is
    to develop and adapt existing sand erosion resistance components into the
    auxiliary power unit on the Apache/Longbow helicopter. The components will
    reduce the amount of sand and dust ingested by the auxiliary power unit. The
    increase in operational life of the auxiliary power unit will be accomplished by
    adapting a scaled version of an existing commercial inlet particle separator and
    ceramic nozzle.

    Project Status: Agreement value $1,997,160.
    Cost share: DoD $1,497,870/Contractor $499,290.
    Project start date September 10, 1999. Performance period 24 months.
    Stage 1 in process. Stage 2 not budgeted.




                                        24
Army FY 2000
    Install, Integrate, and Support Commercial-off-the-Shelf Nondestructive
    Inspection for Kiowa Warrior (Agreement No. DAAH10-00-9-0001). The
    intent of this effort is to replace the avionics/crew station multifunctional
    display, integrated stores management system, and infra-red suppressor on the
    Kiowa Warrior aircraft. This will increase performance, flight safety, and
    range of the aircraft.

    Project Status: Agreement value $5,559,264.
    Cost share: DoD $4,169,448/Contractor $1,389,816.
    Project start date August 30, 1999. Performance period 24 months.

    Guardrail Common Sensor Replacement Receivers (Agreement
    No. DAAB07-00-9-D319). The intent of this effort is to replace the current
    guardrail receivers with maintainable, commercial-off-the-shelf receivers. The
    replacement receivers will reduce the payload weight, require less power, and
    increase frequency coverage above the current limit of the existing receivers.

    Project Status: Agreement value $882,399.
    Cost share: DoD $666,614/Contractor $215,785.
    Project start date June 16, 2000. Performance period 18 months.

    Portable Engine Test Cell Capability for CH-57 and MH-57 Helicopters
    (Agreement No. DAAH01-00-3-R001). The intent of this effort is to provide a
    turn-key portable test solution for testing installed turbine engines in the CH-57
    and MH-47 helicopters. The modified system will satisfy the current
    requirement for engine pass-fail decisions and add fault isolation of engine
    components.

    Project Status: Agreement value $553,000.
    Cost share: DoD $390,700/Contractor $162,300.
    Project start date October 5, 1999. Performance period 16 months.

    Low Cost First and Second Stage Compressor Blades for the AGT 1500
    Engine (DAAE07-00-9-0002). The objective is to achieve significant life-cycle
    cost improvements in the AGT 1500 engine by using low cost and commercially
    available technology through the use of metal injection molding technology and
    an aqueous binder system.

    Project Status: Agreement value $2,182,927.
    Cost share: DoD $1,637,195/Contractor $545732.
    Project start date September 29, 2000. Performance period 26 months.




                                        25
Navy FY 1997
    Helicopter Usage Monitoring and Diagnostic System (Agreement
    No. N00019-97-H-0152). The intent of this effort is to adapt a commercial,
    open architecture, on-board Integrated Mechanical Diagnostics and ground-
    based usage and maintenance management software to the specific needs of the
    Navy, Marine Corps, and Coast Guard for the SH-60 and CH-53E helicopters.

    Project Status: Agreement value $18,041,924.
    Cost share: DoD $9,020,962/Contractor $9,020,962.
    Project start date July 16, 1997. Performance period 24 months.
    Over 16 additional months needed to complete project.
    Stage 1 in process for the SH-60 and stage 1 completed in January 2001 for the
    CH-53. Stage 2 budgeted, and the CH-53E portion converted to a FAR Part 12
    contract.

    Commercially Based Processing for E2C/C2A (also known as the Blade
    Inspector Kit for E2C/C2A) (Agreement No. N00019-97-H-0164). The intent
    of this effort is to prototype a verifiable non-developmental item inspection tool,
    the Blade Inspection Kit. This prototype will use infrared and digital imagery
    technology to detect faulty blades and predict over time, which blades exhibit
    characteristics known to cause failure.

    Project Status: Agreement value $266,194.
    Cost share: DoD $199,645/Contractor $66,549.
    Project start date September 18, 1997. Performance period 5 months.
    Additional 5 months needed to complete project.
    Stage 1 complete. Stage 2 not planned or budgeted.

    Military Qualification of a High Reliability, Light-Weight 24V/30Ah
    Aircraft Battery (Agreement No. N00019-97-H-0172). The intent of this
    effort is to replace the existing battery with a high reliability, light-weight
    24V/30Ah battery to be used in the C-130, P-3, and T-37 aircraft. This will
    increase the battery life to 3 years (a 50 percent increase over presently used
    batteries) and decrease the battery weight by 25 percent.

    Project Status: Agreement value $373,845.
    Cost share: DoD $261,692/Contractor $112,153.
    Project start date September 25, 1997. Performance period 20 months.
    Additional 25 months needed to complete project.
    Stage 1 in process. Stage 2 budgeted.

    Commercially Based Processing for F/A-18C/D (Agreement No. N00019-97-
    H-0173). The intent of this effort is to achieve a significant reduction in annual
    software maintenance costs on the F/A-18C/D by replacing the current assembly
    language-based software in the mission computer with software written in a
    commercially based, object-oriented, high-order language that is easier to
    maintain.




                                        26
Project Status: Agreement value $36,103,374.
Cost share: DoD $13,957,059/ Contractor $22,146,315.
Project start date September 22, 1997. Performance period 36 months.
Stage 1 in process. Stage 2 not budgeted.

Acoustic Emission and Ultrasonic Testing for Periodic Inspection of
Pneumatic Pressure Vessels (Agreement No. N00024-97-H-4194). The intent
of this effort will adapt the existing commercial SPARTAN 2000 Acoustic
Emission and Ultrasonic Testing system to military application through the
nonrecurring engineering effort necessary to modify the existing hardware and
software, develop system integration, and conduct qualification testing.

Project Status: Agreement value $588,530.
Cost share: DoD $294,265/Contractor $294,265.
Project start date August 1, 1997. Performance period 18 months.
Additional 5 months needed to complete project.
Stage 1 complete. Stage 2 not budgeted.

Advanced Digital/Logistic Integrated Data Capture and Analysis
(Agreement No. N00024-97-H-4204). The intent of this effort will result in the
development of a prototype kit that will automate the current manual process of
acquiring detailed existing shipboard arrangements, conditions, interference and
logistics data to expedite engineering changes and modernization. The primary
technology area is in data capture through laser scanning. This system will
attempt to satisfy customer requirements for concept development, equipment
maintenance, and interpretability with exiting data repositories.

Project Status: Agreement value $7,088,600.
Cost share: DoD $5,128,199/Contractor $1,960,401.
Additional $3,825,000 was added with a congressional plus-up award.
Project start date September 8, 1997. Performance period 36 months.
Additional 3 months needed to complete project.
Stage 1 in process. Stage 2 not budgeted.

Reconfigurable Logic Engine for Legacy Systems (Agreement No. N00024-
97-H-5247). The intent of this effort will replace the Standard Electronic
Modules in the AN/SPS-67 radar system. The Reconfigurable Logic Engine-A
will reduce the number of unique boards in a system whereas the Reconfigurable
Logic Engine VME-bus will reduce the total number of boards in a system.

Project Status: Agreement value $2,276,825.
Cost share: DoD $1,127,739/Contractor $1,149,086.
Project start date July 10, 1997. Performance period 24 months.
Stage 1 complete. Stage 2 not planned or budgeted.

Sonar Receiver Set AN/BQR-22A COTS Insertion (Agreement No. N00024-
97-H-6244). The intent of this effort is to upgrade the AN/BQR-22A sonar
receiver set by replacing the current customer hardware and software in
submarines with commercial-off-the-shelf hardware and interfaces and open
architecture software.




                                   27
Project Status: Agreement value $4,104,930.
Cost share: DoD $3,104,930/Contractor $1,000,000.
Project start date July 23, 1997. Performance period 18 months.
Additional 20 months needed to complete project.
Stage 1 in process. Stage 2 not planned or budgeted.

Lithium Ion Polymer Batteries for Navy Underwater Use (Agreement
No. N00024-97-H-6398). The intent of this effort is to develop Lithium Ion
Polymer Batteries to replace existing zinc-silver oxide batteries used on the
MK-30 Training Target System, the MK-8 Seal Delivery Vehicle, and the
Advanced Seal Delivery System which will last 5 times longer.

Project Status: Agreement value $5,897,462.
Cost share: DoD $3,449,639/Contractor $2,447,823.
Project start date August 29, 1997. Performance period 24 months.
Additional 17 months needed to complete project.
Stage 1 in process. Stage 2 not budgeted.

Cutting Cost with Tivoli’s Integrated Systems Management Tools
(Agreement No. N00039-97-C-8001). The intent of this effort will design,
implement, and test web-based technologies on Joint Maritime Command
Information Systems workstations. This integrated configuration management
approach for software maintenance will reduce operation and support cost for
the Navy.

Project Status: Agreement value $2,934,568.
Cost share: DoD $2,057,000/ Contractor $877,568.
Project start date July 25, 1997. Performance period 12 months.
Stage 1 complete. Stage 2 not planned or budgeted.

FltCast Program (Agreement No. N00039-97-C-8002). The intent of this
effort will develop a prototype system to disseminate information quickly and
efficiently throughout the fleet using the Internet with the objective of providing
individual users with the ability to selectively filter and update required
information.
Project Status: Agreement value $239,976.
Cost share: DoD $179,976/ Contractor $60,000.
Project start date September 4, 1997. Performance period 9 months.
Stage 1 complete. Stage 2 not planned or budgeted.

USMC Signal Intelligence/Electronic Warfare Systems Interoperability
(Agreement No. M67854-97-C-2115). The intent of this effort will use a
commercial communications gateway to increase the interoperability of
four current Marine Corps systems.

Project Status: Agreement value $3,799,090.
Cost share: DoD $1,864,540/Contractor $1,934,550.
Additional $40,311 was added by the program office.
Project start date August 15, 1997. Performance period 24 months.
Stage 1 complete. Stage 2 not budgeted.



                                    28
    Laser Cladding Applications in the Operation and Support of Land Based
    Vehicles (Agreement No. M67854-97-C-2116). The intent of this effort is to
    adapt the commercially proven laser beam cladding process for the
    refurbishment of components of Assault Amphibious Vehicles, Logistics Vehicle
    Systems, and other Marine Corps land-based vehicles.

    Project Status: Agreement value $557,968.
    Cost share: DoD $322,855/Contractor $235,113.
    Project start date August 20, 1997. Performance period 12 months.
    Additional 4 months needed to complete project.
    Stage 1 complete. Stage 2 not budgeted.

    Portable Engine Test Cell Capability for H-53 Series and H-46 Series
    Helicopters (Agreement No. M67854-97-C-2117). The intent of this effort is to
    develop a system that can instantly monitor the engines of the H-53 and
    H-46 helicopters while in flight. This project will attempt to automate the
    analysis of engine failures through a system called JETCAL 2000. This will
    eliminate the unnecessary removal of engines that are operationally fine.

    Project Status: Agreement value $403,000.
    Cost share: DoD $359,000/Contractor $44,000.
    Project start date September 1, 1997. Performance period 16 months.
    Additional 15 months needed to complete project.
    Stage 1 in process. Stage 2 not budgeted.


Navy FY 1999
    Life Enhancement of the F405 Compressor Drum Using Modern
    Commercial Design Tools (Agreement No. N00019-99-9-1493). The intent of
    this effort is to double the useful life of the current High Pressure Compressor
    drum with the use of modern commercial design tools.

    Project Status: Agreement value $1,853,000.
    Cost share: DoD $1,360,000/Contractor $493,000.
    Project start date June 22, 1999. Performance period 18 months.
    Stage 1 in process. Stage 2 budgeted.

    Multi Functional Control and Display Unit for the E-2C Aircraft
    (Agreement No. N00019-99-9-1546). The intent of this effort is to replace the
    existing multi functional control and display unit for the E-2C aircraft with
    commercial-off-the-shelf technology. System-level performance will be
    significantly enhanced.

    Project Status: Agreement value $1,629,866.
    Cost share: DoD $1,142,900/Contractor $486,966.
    Project start date September 20, 1999. Performance period 18 months.
    Stage 1 in process. Stage 2 not budgeted.




                                       29
    Commercially Based Processing for the T-45TS (Agreement No. N00019-99-
    9-1662). The intent of this effort is to replace the mission display processor that
    resides on the T-45 training helicopter with commercial-off-the-shelf
    technology. The new commercially based mission display processor will avoid
    technology obsolescence issues and be much easier to maintain.

    Project Status: Agreement value $9,807,799.
    Cost share: DoD $6,933,234/Contractor $2,874,565.
    Project start date September 23, 1999. Performance period 21 months.
    Stage 1 in process. Stage 2 not budgeted.

    Helicopter Usage Monitoring (Agreement No. N00019-97-H-0152/P00002).
    The intent of this effort is to adapt a commercial, open architecture, on-board
    Integrated Mechanical Diagnostics and ground-based usage and maintenance
    management software for the H-1 helicopters. The H-1 helicopter platform was
    added to the H-53 and H-60 effort.

    Project Status: Agreement value $8,586,730.
    Cost share: DoD $6,440,047/Contractor $2,146,683.
    Project start date September 30, 1999. Performance period 36 months.
    Stage 1 in process. Stage 2 budgeted.

    Dock Landing Ship (LSD) 41/49 Class Fuel and Engine Maintenance
    Savings Initiative (Agreement No. N00024-99-2-4161). The intent of this
    effort is to produce more efficient propeller blades and a software-run engine
    that will give the LSD 41 class and LSD 49 class of ships a form of cruise
    control and reduce fuel consumption.

    Project Status: Agreement value $658,825.
    Cost share: DoD $329,412/Contractor $329,413.
    Project start date September 30, 1999. Performance period 27 months.
    Stage 1 in process. Stage 2 not budgeted.


Navy FY 2000
    Air Start Kit 200 (Agreement No. N68335-00-9-0339). The intent of this
    effort is to adapt a commercially available gas turbine-based aircraft, air start
    unit design to create an air start module which will meet the dimensional,
    weight, and environmental requirements of the Navy’s shipboard and land-based
    air start systems.

    Project Status: Agreement value $3,252,335.
    Cost share: DoD $2,439,250/Contractor $813,085.
    Project start date April 19, 2000. Performance period 25 months.

    Electronic Propeller Control System Upgrade (Agreement No. N00019-00-9-
    0314). The intent of this effort is to upgrade the P-3 aircraft propeller control
    systems from mechanical to digital electronic controls. This will improve
    propeller control speed and accuracy.



                                        30
Project Status: Agreement value $6,876,658.
Cost share: DoD $4,813,661/Contractor $2,062,997.
Project start date May 23, 2000. Performance period 24 months.

P-3 Maintainer’s Electronic Performance Support (Agreement No. N00019-
00-9-0315). The intent of this effort is to develop a single, portable
Maintainer’s Electronic Performance Support System that integrates a variety of
key Navy information resources needed by workers who maintain the P-3
aircraft. This system will be designed so that maintenance workers can access it
while on the flight-line and refer to its information resources by voice activated
commands. Information will be accessible by a wireless communications link.

Project Status: Agreement value $2,000,000.
Cost share: DoD $1,500,000/Contractor $500,000.
Project start date May 31, 2000. Performance period 19 months.

First Mate Ship Hull Cleaner (Agreement No. N00024-00-9-4068). The
intent of this effort is to expand the capability for removing paint, rust, and
marine growth from the outer hull bottom surfaces of naval ships. The First
Mate ship hull cleaning system will increase productivity and reliability.

Project Status: Agreement value $255,000.
Cost share: DoD $190,000/Contractor $65,000.
Project start date March 20, 2000. Performance period 9 months.

Acoustic Emission for Periodic Inspection of Composite Pressure Vessels
(N00024-00-9-4136 [the original agreement number was N00024-00-0-4122
but was subsequently changed]). Tests of composite pressure vessels using
standard laboratory type AE instrumentation identified a variety of issues to
facilitate use of the AE method. This effort will add to the knowledge already
available for improvements to existing instrumentation.

Project Status: Agreement value $741,350
Cost share: DoD $556,012/Contractor $185,338
Project start date August 16, 2000. Performance period 18 months.

Pinpoint Test System (Agreement No. N66604-00-9-3110). The intent of this
effort is to redesign the existing workstation with greater diagnostics
capabilities. This new Pinpoint system will allow the Navy to have a more
accurate, efficient, and capable method of finding a fault on a circuit board so
that the board can be repaired and put back into service within a timely manner.

Project Status: Agreement value $817,764.
Cost share: DoD $515,191/Contractor $302,573.
Project start date May 23, 2000. Performance period 9 months.

Unattended Paint Removal and Application System (Agreement
No. N00024-00-9-4082). The intent of this effort is to adapt commercial-off-
the-shelf products to build an environmentally controlled, unattended paint
removal and application system that prevents the release of hazardous




                                    31
    compounds into the environment. This system will address the critical
    environmental considerations and safety issues associated with removing and
    applying paint to ship surfaces.

    Project Status: Agreement value $3,727,959.
    Cost share: DoD $2,721,000/Contractor $1,006,959.
    Project start date June 12, 2000. Performance period 17 months.

    Network Centric METOC (Meteorological/Oceanographic) Device
    (Agreement No. N00039-00-9-4000). Develop, demonstrate, and
    commercialize the “thin client” to meet the METOC requirements to reduce
    software development, installation, maintenance, and upgrade costs for Navy
    (and other Government) applications.

    Project Status: Agreement value $275,000.
    Cost share: DoD $156,596/Contractor $118,404.
    Project start date November 11, 1999. Performance period unknown

    CASS Upgrade to Commercial Software (Agreement No. N68335-00-9-
    0442). The intent of this effort will integrate and demonstrate commercial
    software upgrade to the Consolidated Automated Support System. This upgrade
    will provide greater flexibility to the warfighter.

    Project Status: Agreement value $3,832,742.
    Cost share: DoD $2,762,971/Contractor $1,069,771.
    Project start date August 9, 2000. Performance period 24 months.


Air Force FY 1997
    Mini-Multiple Threat Emitter Simulation Replacement Processor
    (Agreement No. F04606-97-4-0001). The intent of this effort is to add
    advanced threat capabilities to the existing Mini-Multiple threat emitter radar
    simulator. A replacement commercial-off-the-shelf processor and bus will
    increase mission effectiveness and provide capabilities to meet future system
    growth.

    Project Status: Agreement value $2,088,457.
    Cost share: DoD $1,485,190/ Contractor $603,267.
    Project start date September 11, 1997. Performance period 14 months.
    Stage 2 in process, a FAR Part 15, Contract by Negotiation contract was issued.

    Data Distribution Kits for Command Centers (Agreement No. F04606-97-4-
    0002). The intent of this effort is to develop a replacement of the data
    distribution networks for mobile consolidated command centers with
    commercial-off-the-shelf products. This new communication system will
    provide enduring mobile command centers during pre-, trans-, and post-attack
    phases of nuclear war.




                                        32
Project Status: Agreement value $6,258,485.
Cost share: DoD $4,011,463/Contractor $2,247,022.
Project start date September 15, 1997. Performance period 18 months.
Additional 3 months needed to complete project.
Stage 2 in process, a FAR Part 12, Acquisition of Commercial Items contract
was issued.

Versa Module Europa Contingency Antenna Position Control Unit
(Agreement No. F19628-97-4-0001). The intent of this effort is to upgrade the
existing antenna controller in a communications system with commercial-off-
the-shelf technology. This open architecture electronics will allow easy, cost-
effective, future technology insertions with increased reliability and
maintainability.

Project Status: Agreement value $322,926.
Cost share: DoD $158,125/ Contractor $164,801.
Additional $486,000 was added by the program office.
Project start date September 23, 1997. Performance period 19 months.
Additional 18 months needed to complete project.
Stage 1 complete. Stage 2 production, FAR Part 15, Contract by Negotiation
will be issued.

Commercially Based Processing for the F-15E (Agreement No. F33657-97-9-
2058). The intent of this effort is to replace the existing Multipurpose Display
Processor with a commercial-off-the-shelf Advanced Display Core Processor.
This new processor will maintain the functionality of the existing processor
while increasing throughput and memory function. The Advanced Display Core
Processor will improve reliability and enable more efficient software
production.

Project Status: Agreement value $32,261,769.
Cost share: DoD $10,361,387/ Contractor $21,900,382.
Project start date September 15, 1997. Performance period 36 months.
Stage 1 in process. Stage 2 budgeted.

F-16 C/D F110 Engine Ejector Nozzle (Agreement No. F33657-97-4-2059).
The intent of this effort is to replace the existing engine ejector nozzle. The
replacement engine ejector nozzle will improve cooling effectiveness and will
increase the life of the hardware by more than four times.

Project Status: Agreement value $7,549,100.
Cost share: DoD $6,640,500/Contractor $908,600.
Project start date September 17, 1997. Performance period 27 months.
Additional 12 months needed to complete project.
Stage 1 in process. Stage 2 not budgeted.




                                   33
    Discontinuously Reinforced Aluminum (Agreement No. F42620-97-4-0001).
    The intent of this effort is to scale-up and reduce the cost of the discontinuously
    reinforced aluminum sheet for the F-16 aircraft. This wider aluminum sheet
    will be used to manufacture the ventral fins and fuel access covers on the F-16
    aircraft.

    Project Status: Agreement value $2,341,843.
    Cost share: DoD $2,169,952/ Contractor $171,891.
    Project start date August 15, 1997. Performance period 18 months.
    Additional 12 months needed to complete project.
    Stage 1 is complete but did not result in a FAR contract. This project proved a
    technology capability of producing a product more efficiently and will result in
    prime contractors acquiring the product from the contractor in a
    subcontractor/vendor relationship.


Air Force FY 1999
    Low Altitude Navigation and Targeting Infrared for Night Support
    Equipment Mid-Life Upgrade (Agreement No. F09603-99-9-0001). The
    intent of this effort is to provide automatic test equipment for testing avionics on
    aircraft targeting and navigation systems. Commercial-off-the-shelf equipment
    will provide for the upgrade of the current system. The upgraded system will
    provide improved reliability, maintainability, and production efficiency.

    Project Status: Agreement value $4,999,599.
    Cost share: DoD $3,003,763/Contractor $1,995,836.
    Project start date July 27, 1999. Performance period 15 months.
    Stage 1 in process. Stage 2 budgeted.

    Menu Driven Intercommunication System Control Panel Project
    (Agreement No. F33657-99-9-2033). The intent of this effort is to replace the
    existing Intercommunication System Control Panel with commercial technology.
    The new control panel will have a more generalized design and will make future
    upgrades and modifications to the C-17 aircraft independent of the panel.
    Increased capacity and expansion of memory will result.

    Project Status: Agreement value $2,422,267.
    Cost share: DoD $1,816,700/Contractor $605,567.
    Project start date September 24, 1999. Performance period 18 months.
    Stage 1 in process. Stage 2 budgeted.

    F-16 Heads Up Display Electronic Unit Replacement (Agreement
    No. F33657-99-9-2035). The intent of this effort to develop a form, fit, and
    function interchangeable electronic unit for the F-16 aircraft Heads Up Display
    system. The new electronic unit will eliminate current obsolescence from the
    unit.




                                         34
    Project Status: Agreement value $5,559,152.
    Cost share: DoD $2,779,576/ Contractor $2,779,576.
    Project start date August 16, 1999. Performance period 20 months.
    Stage 1 in process. Stage 2 not budgeted.

    Automated Data Acquisition System for Jet Engine Testing (Agreement
    No. F41608-99-9-0288). The intent of this effort is to incorporate intelligent
    commercial off the shelf instrumentation technologies into jet engine test
    systems. This new data acquisition system will replace the current systems and
    will accelerate the data acquisition process. This new system will reduce total
    test time, fuel consumption, and manpower requirements, while providing a
    positive environmental impact.

    Project Status: Agreement value $2,212,950.
    Cost share: DoD $1,562,950/Contractor $650,000.
    Project start date June 11, 1999. Performance period 18 months.
    Stage 1 in process. Stage 2 budgeted.

    Internet Based Information Architecture for Automatic Test System
    (Agreement No. F41608-99-9-2205). The intent of this effort is to implement
    commercial-off-the-shelf technology to improve the automatic test system
    information management process. This Internet-based system will be an on-
    line, multi client/server application that will give the control point user the
    ability to view, add, delete, and revise many types of information while
    providing fielded users with a common information base.

    Project Status: Agreement value $1,769,522.
    Cost share: DoD $1,250,000/Contractor $519,522.
    Project start date September 10, 1999. Performance period 10 months.
    Stage 1 in process. Stage 2 budgeted.


Air Force FY 2000
    F-16 Improved Avionics Intermediate Shop Digital Signal Processing
    Replacement (Agreement No. F33657-99-9-2036). The intent of this effort is
    to introduce a more cost-effective radio frequency testing capability for the F-16
    Improved Avionics Intermediate Shop Automatic Test Equipment. The Digital
    Signal Processing replacement will allow increased capabilities through software
    updates rather than hardware changes.

    Project Status: Agreement value $1,720,210. Cost share:
    DoD $1,270,210/Contractor $450,000.
    Project start date March 23, 2000. Performance period 22 months.

    Commercially Based Pneumatic Weapon Ejection System for the F-15E
    (Agreement No. F33657-00-9-2055). The intent of this effort is to replace the
    F-15E suite of bomb racks with a commercially based Pneumatic Weapon
    Ejection System. This new weapon carriage and release system will match the




                                        35
specified performance of the existing bomb racks while eliminating software
changes, reducing flight test requirements, reducing hazardous waste products,
and improving weapon release characteristics.

Project Status: Agreement value $8,630,652.
Cost share: DoD $5,807,059/Contractor $2,823,593.
Project start date April 24, 2000. Performance period 27 months.

APG-68 Array Processor Modernization Kit (Agreement No. F42620-00-9-
0001). The intent of this effort is to modify the existing array processor with
commercial-off-the-shelf equipment while matching or increasing the function
and performance of the existing radar system. The conversion of the existing
closed architecture to an open system will make it possible to cost-effectively
add cost-effective capabilities to meet future requirements.

Project Status: Agreement value $9,951,273.
Cost share: DoD $6,000,000/Contractor $3,951,273.
Project start date March 16, 2000. Performance period 18 months.




                                   36
           Table 1. Original Contractor Proposed Operations and Support Savings Projections for COSSI3
                                                                            (in thousands)




                                                                                                                                                  Appendix C. Summary of Operations and
                                                                                                      Cost Savings
     COSSI Title                                                Agreement No.            1-3 years      4-6 years     7-10 years         Total
     Army FY 1997 COSSI Projects

         Dual application growth rotor blade               DAAB07-97-9-D020                   0             0         $     2,600   $     2,600

          Polymeric tray kit                               DAAB07-97-9-D322                           Terminated

          Switchable eyesafe laser rangefinder             DAAB07-97-9-D615              $ 48,158        $ 27,846          12,099        88,103




                                                                                                                                                              Support Savings
          designator

          Dynamic private virtual networks                 DAAB07-97-9-E312              137,250         137,250          183,000       457,500

         Heads-up display                                  DAAB07-97-9-E313                   0                 381        14,394        14,775

          Mainframe computer replacement for               DAAB07-97-9-E314                   3,899         3,899           5,199        12,997
          guardrail common sensor
37




          Advanced flight control computer                 DAAB07-97-9-E315                  62,450      154,440          336,540       553,430

          Affordable Apache rotor system                   DAAB07-97-9-J046                  98,700       98,700          131,600       329,000

          Composite semitrailer van                        DAAB07-97-9-J047                   4,461        4,461            5,948        14,870

          Modification to the movement tracking            DAAB07-97-9-J048                  40,400      283,700          495,800       819,900
          system satellite communication system

            Total                                                                       $395,318        $710,677 $1,187,180 $2,293,175
               Percent of totals                                                           17              31         52         100




     3
         Commercial Operations and Support Savings Initiative
           Table 1. Original Contractor Proposed Operations and Support Savings Projections for COSSI (Cont’d)
                                                                      (in thousands)
                                                                                        Cost Savings
     COSSI Title                                     Agreement No.         1-3 years     4-6 years     7-10 years      Total
     Army FY 1999 COSSI Projects

       Common interoperable integrated             DAAH10-99-9-0001         $    787       $ 787       $ 578        $ 2,152
       mechanical diagnostics/health usage
       management system

       The improved remotely monitored             DAAB07-99-9-D286             1,114         993         0            2,107
       battlefield sensor systems repeater

       Sand erosion resistance kits for model      DAAB07-99-9-K762          25,113        11,430        13,218       49,761
       36-155 APU on Apache/Longbow
38




       helicopter

         Total                                                             $ 27,014       $13,210       $13,796     $ 54,020
            Percent of totals                                                  50            24            26          100

     Army FY 2000 COSSI Projects

      Install, integrate, and support commercial   DAAH10-00-9-0001         105,335        39,902        12,789      158,026
      off the shelf nondestructive inspection
      for Kiowa Warrior

      Guardrail common sensor replacement          DAAB07-00-9-D319             3,289        3,289         4,386      10,964
      receivers

      Portable engine test cell capability for     DAAH01-00-3-R001             5,417       4,872          5,741      16,030
      CH-47 and MH-47 helicopters

         Total                                                             $114,041       $48,063       $22,916     $185,020
            Percent of totals                                                  62            26            12          100
            Table 1. Original Contractor Proposed Operations and Support Savings Projections for COSSI (Cont’d)
                                                                          (in thousands)
                                                                                            Cost Savings
     COSSI Title                                        Agreement No.          1-3 years     4-6 years     7-10 years        Total
     Navy FY 1997 COSSI Projects

       Helicopter usage monitoring and diagnostic N00019-97-H-0152              $79,000      $358,000      $709,000     $1,146,000
       system

       Commercially based processing for               N00019-97-H-0164               53        2,175          2,900         5,128
       E2C/C2A

       Military qualification of a high reliability,   N00019-97-H-0172            1,100        3,126          4,168        8,394
       light-weight 24V/30AH aircraft battery

       Commercially based processing for               N00019-97-H-0173          14,800       117,700       115,500       248,000
       F/A 18C/D
39




       Acoustic emission and ultrasonic testing
       for periodic inspection of pneumatic            N00024-97-H-4194          11,820        11,820        15,760        39,400
       pressure vessels

       Advanced digital/logistic integrated data       N00024-97-H-4204            9,750        4,910          4,340       19,000
       capture and analysis

       Reconfigurable logic engine for legacy          N00024-97-H-5247            2,400        2,130          2,840         7,370
       systems

       Sonar receiver set AN/BQR-22A                   N00024-97-H-6244           (1,360)       5,240          6,633       10,513
       commercial off the shelf insertion

       Lithium ion polymer batteries for Navy          N00024-97-H-6398          $ 2,549      $21,662       $ 35,822    $ 60,033
       underwater usage
             Table 1. Original Contractor Proposed Operations and Support Savings Projections for COSSI (Cont’d)
                                                                    (in thousands)
                                                                                     Cost Savings
     COSSI Title                                  Agreement No.          1-3 years    4-6 years     7-10 years        Total
     Navy FY 1997 COSSI Projects (Cont’d)

      Cutting cost with Tivoli’s integrated      N00039-97-C-8001         $ 7,882      $ 8,399         0         $ 16,281
      systems management tools

      FltCast program                            N00039-97-C-8002            6,927       8,499       $ 12,570       27,996

      Marine Corps signal intelligence/          M67854-97-C-2115          27,063        6,030         0            33,093
      electronic warfare systems
      interoperability
40




      Laser cladding applications in the         M67854-97-C-2116            2,457       1,880         0             4,337
      operation and support of land based
      vehicles

      Portable engine test cell capability for   M67854-97-C-2117            7,900      17,000        20,600        45,500
      H-53 series & H-46 series helicopters

        Total                                                            $172,341     $568,571      $930,133     $1,671,045
           Percent of totals                                                 10          34            56             100
             Table 1. Original Contractor Proposed Operations and Support Savings Projections for COSSI (Cont’d)
                                                                           (in thousands)
                                                                                             Cost Savings
     COSSI Title                                      Agreement No.             1-3 years     4-6 years     7-10 years        Total
     Navy FY 1999 COSSI Projects

       Life enhancement of the F405                 N00019-99-9-1493                  0      $ 21,041       $     9,095   $ 30,136
       compressor drum using modern
       commercial design tools

      Multifunctional control and display unit      N00019-99-9-1546             $    383        3,573            5,345      9,301
      for the E-2C aircraft

      Commercially based processing for the         N00019-99-9-1662                 6,769      10,244           30,279     47,292
      T-45TS

      Helicopter usage monitoring                N00019-97-H-0152/P00002             3,971      75,441          190,588    270,000

      Dock landing ship 41/49 class fuel            N00024-99-2-4161                 1,925       3,825            4,540     10,290
      and engine maintenance savings
41




      initiative

         Total                                                                  $ 13,048     $ 114,124      $ 239,847     $ 367,019
            Percent of totals                                                       4            31             65            100

     Navy FY 2000 COSSI Projects

      Air start kit 200                             N68335-00-9-0339                 8,618      49,159           43,046     100,823

       Electronic propeller control system          N00019-00-9-0314                  0         11,867           43,290      55,157
       upgrade

      P-3 maintainer’s electronic performance        N00019-00-9-0315            400,502      2,693,956     3,272,823      6,367,281
      support
             Table 1. Original Contractor Proposed Operations and Support Savings Projections for COSSI (Cont’d)
                                                                      (in thousands)
                                                                                       Cost Savings
     COSSI Title                                    Agreement No.          1-3 years    4-6 years      7-10 years         Total
     Navy FY 2000 COSSI Projects (Cont’d)

       First mate ship hull cleaner               N00024-00-9-4068          $ 1,682     $    1,365     $    1,886    $    4,933

       Pinpoint test system                       N66604-00-9-3110             4,482        14,510         30,666        49,658

       Unattended paint removal and application   N00024-00-9-4082             4,028         5,149          7,507        16,684
       system

       Consolidated automated support system      N68335-001-9-0442          10,233          4,967          4,267        19,467
42




       upgrade to commercial software

         Total                                                             $429,545    $2,780,973     $3,403,485    $6,614,003
            Percent of totals                                                  6            42             52            100
            Table 1. Original Contractor Proposed Operations and Support Savings Projections for COSSI (Cont’d)
                                                                       (in thousands)
                                                                                        Cost Savings
     COSSI Title                                     Agreement No.          1-3 years    4-6 years     7-10 years      Total
     Air Force FY 1997 COSSI Projects

       Mini-Mutes replacement processor             F04606-97-4-0001         $34,570      $ 50,966      $ 87,766    $173,302

       Data distribution kits for command centers   F04606-97-4-0002            9,737      10,465        21,243       41,445

       Versa module europa contingency antenna      F19628-97-4-0001             0            500          1,600       2,100
       position control unit

       Commercially based processing for the        F33657-97-9-2058          30,000       30,000        40,000      100,000
       F-15E

       F-16 C/D F110 engine ejector nozzle          F33657-97-4-2059            9,348      25,444        45,176       79,968
43




       Discontinuously reinforced aluminum          F42620-97-4-0001            5,690       5,200          0          10,890

         Total                                                               $89,345     $122,575      $195,785     $407,705
            Percent of totals                                                   22          30            48           100

     Air Force FY 1999 COSSI Projects

      Lantirn support equipment mid-life            F09603-99-9-0001            6,919     107,654       205,623      320,196
      upgrade

      Menu driven intercommunication system         F33657-99-9-2033            7,970       4,008        10,232       22,210
      control panel project

      F-16 heads up display electronic unit         F33657-99-9-2035            5,202       6,938          5,618      17,758
      replacement
            Table 1. Original Contractor Proposed Operations and Support Savings Projections for COSSI (Cont’d)
                                                                        (in thousands)
                                                                                         Cost Savings
     COSSI Title                                      Agreement No.          1-3 years    4-6 years     7-10 years      Total
     Air Force FY 1999 COSSI Projects (Con’t)
       Automated data acquisition system for jet     F41608-99-9-0288         $25,846     $102,360      $120,637     $248,843
       engine testing

       Internet based information architecture for   F41608-99-9-2205          $ 9,177     $ 2,845       $ 3,109     $ 15,131
       automatic test system

         Total                                                                $55,114     $223,805      $345,219     $624,138
            Percent of totals                                                    9           36            55          100

     Air Force FY 2000 COSSI Projects
44




       F-16 improved avionics intermediate shop      F33657-99-9-2036            3,682       9,697        11,067       24,446
       digital signal processing replacement

       Commercially based pneumatic weapon           F33657-00-9-2055            0          92,491        85,386      177,877
       ejection system for the F-15E

       APG-68 array processor modernization kit      F42620-00-9-0001            2,785      11,049        41,452       55,286

         Total                                                                 $ 6,467    $113,237      $137,905     $257,609
            Percent of totals                                                     2          44            54          100
            Table 2. Period of Performance and Status for FY 1997 and FY 1999 COSSI4 Projects




                                                                                                                                    Appendix D. Summary of FY 1997 and FY 1999
                                                                                      Months
                                                                                       to       Additional
     Agreement                        Start Date                Completion Date      Complete    Months      Status

     1997 Army Projects

     DAAB07-97-9-D020                 September 19, 1997        September 19, 1999     24           9        Stage 1 in process
                                                                                                             Stage 2 budgeted




                                                                                                                                                Performance Period and Status
     DAAB07-97-9-D322                 September 29,1997         September 29, 1998     12           0        Terminated

     DAAB07-97-9-D615                 September 12, 1997        July 12, 1999          22          10        Stage 1 in process
                                                                                                             Stage 2 not budgeted

     DAAB07-97-9-E312                 September 22, 1997        March 22, 1999         18          19        Stage 1 in process
                                                                                                             Stage 2 not budgeted

     DAAB07-97-9-E313                 September 22, 1997        December 22, 1998      15          18        Stage 1 in process
45




                                                                                                             Stage 2 not budgeted

     DAAB07-97-9-E314                 September 24, 1997        March 24, 1999          18         15        Stage 1 complete
                                                                                                             Stage 2 not executed
                                                                                                             due to technology
                                                                                                             obsolesce

     DAAB07-97-9-E315                 September 23, 1997        July 23, 1999          22          11        Stage 1 in process
                                                                                                             Stage 2 budgeted

     DAAB07-97-9-J046                 September 30, 1997        September 30, 2000     36           0        Stage 1 in process
                                                                                                             Stage 2 budgeted



     4
         Commercial Operations and Support Savings Initiative
                 Table 2. Period of Performance and Status for FY 1997 and FY 1999 COSSI Projects (Cont’d)

                                                                      Months
                                                                       to       Additional
     Agreement             Start Date           Completion Date      Complete    Months      Status

     1999 Army Projects

     DAAB07-97-9-J047      September 18, 1997   March 18, 1999         18          18        Stage 1 in process
                                                                                             Stage 2 budgeted

     DAAB07-97-9-J048      September 24, 1997   April 24, 1999         19           2        Stage 2 in process

     DAAH10-99-9-0001      August 30, 1999      August 30, 2001        24           0        Stage 1 in process, Stage 2 not budgeted

     DAAB07-99-9-D286      August 20, 1999      August 20, 2000        12           0        Stage 1 in process, Stage 2 budgeted
46




     DAAB07-99-9-K762      September 10, 1999   September 10, 2001      24          0        Stage 1 in process, Stage 2 not budgeted
                 Table 2. Period of Performance and Status for FY 1997 and FY 1999 COSSI Projects (Cont’d)

                                                                      Months
                                                                       to       Additional
     Agreement             Start Date           Completion Date      Complete    Months      Status

     1997 Navy Projects

     N00019-97-H-0152      July 16, 1997        July 1, 1999           24          15        Stage 1 in process, Stage 2 budgeted

     N00019-97-H-0164      September 18, 1997   February 18, 1998       5           4        Stage 1 complete, Stage 2 not planned
                                                                                             or budgeted

     N00019-97-H-0172      September 25, 1997   May 25, 1999            20         25        Stage 1 in process, Stage 2 budgeted

     N00019-97-H-0173      September 22, 1997   September 22, 2000      36          0        Stage 1 in process, Stage 2 not budgeted

     N00024-97-H-4194      August 1, 1997       February 1, 1999        18          5        Stage 1 complete, Stage 2 not budgeted

     N00024-97-H-4204      September 8, 1997    September 8, 2000      36           3        Stage 1 in process, Stage 2 not budgeted
47




     N00024-97-H-5247      July 10, 1997        July 10, 1999           24          0        Stage 1 complete, Stage 2 not planned
                                                                                             or budgeted

     N00024-97-H-6244      July 23, 1997        January 23, 1999       18          20        Stage 1 in process, Stage 2 not planned
                                                                                             or budgeted

     N00024-97-H-6398      August 29, 1997      August 29, 1999        24          17        Stage 1 in process, Stage 2 not budgeted

     N00039-97-C-8001      July 25, 1997        July 25, 1998           12          0        Stage 1 complete, Stage 2 not planned
                                                                                             or budgeted

     N00039-97-C-8002      September 4, 1997    June 4, 1998            9           0        Stage 1 complete, Stage 2 not planned
                                                                                             or budgeted

     M67854-97-C-2115      August 15, 1997      August 15, 1999         24          0        Stage 1 complete, Stage 2 not budgeted
                 Table 2. Period of Performance and Status for FY 1997 and FY 1999 COSSI Projects (Cont’d)

                                                                       Months
                                                                        to       Additional
     Agreement               Start Date           Completion Date     Complete    Months      Status

     1997 Navy Projects (Cont’d)

     M67854-97-C-2116        August 20, 1997      August 20, 1998        12          4        Stage 1 complete, Stage 2 not budgeted

     M67854-97-C-2117        September 1, 1997    January 1, 1999       16          15        Stage 1 in process, Stage 2 not budgeted

     1999 Navy Projects

     N00019-99-9-1493        June 22, 1999        December 31, 2000      18          0        Stage 1 in process, Stage 2 budgeted

     N00019-99-9-1546        September 20, 1999   March 20, 2001         18          0        Stage 1 in process, Stage 2 not budgeted
48




     N00019-99-9-1662        September 23, 1999   June 30, 2001          21          0        Stage 1 in process, Stage 2 not budgeted

     N00019-97-H-0152/       September 30, 1999   October 16, 2002       36          0        Stage 1 in process, Stage 2 budgeted
     P00002

     N00024-99-2-4161        September 30, 1999   December 30, 2001     27           0        Stage 1 in process, Stage 2 not budgeted
                 Table 2. Period of Performance and Status for FY 1997 and FY 1999 COSSI Projects (Cont’d)

                                                                          Months
                                                                           to       Additional
     Agreement                 Start Date           Completion Date      Complete    Months      Status

     1997 Air Force Projects

     F04606-97-4-0001          September 11, 1997   November 11, 1998      14           0        Stage 2 in process

     F04606-97-4-0002          September 15, 1997   March 11, 1999         18           3        Stage 2 in process

     F19628-97-4-0001          September 23, 1997   April 23, 1999         19          18        Stage 1 complete, Stage 2 budgeted
                                                                                                 and awaiting contract approval

     F33657-97-9-2058          September 15, 1997   September 15, 2000     36           0        Stage 1 in process, Stage 2 budgeted

     F33657-97-4-2059          September 17, 1997   December 30, 1999      27          12        Stage 1 in process, Stage 2 not budgeted
49




     F42620-97-4-0001          August 15, 1997      February 15, 1999      18          12        Stage 2 in process

     1999 Air Force Projects

     F09603-99-9-0001          July 27, 1999        October 27, 2000       15           0        Stage 1 in process, Stage 2 budgeted

     F33657-99-9-2033          September 24, 1999   March 24, 2001         18           0        Stage 1 in process, Stage 2 budgeted

     F33657-99-9-2035          August 16, 1999      April 16, 2001         20           0        Stage 1 in process, Stage 2 not budgeted

     F41608-99-9-0288          June 11, 1999        December 22, 2000       18          0        Stage 1 in process, Stage 2 budgeted

     F41608-99-9-2205          September 10, 1999   July 31, 2000          10           0        Stage 1 in process, Stage 2 budgeted
Appendix E. Comments of the Deputy Under
Secretary of Defense (Science and Technology) on
Finding A and Audit Response
    DUSD (S&T) comments to the draft report addressed specific areas that DUSD
    (S&T) believed needed to be changed for report accuracy. Below identifies the
    DUSD (S&T) comment and audit response.

    Management Comments. DUSD (S&T) provided comments on the finding
    and noted differences in the number of COSSI awards. DUSD (S&T) stated
    that there were 60 awards made in FYs 1997, 1999, and 2000, and that changes
    to Table 1 were necessary.

    Audit Response. We revised the audit report to show that 59 COSSI projects
    were awarded in FYs 1997, 1999, and 2000. The difference of one project is
    represented by the Army’s issuing an FY 1998 modification to an FY 1997
    COSSI agreement and OSD recording the modification as an FY 1999 COSSI
    project. This audit did not treat the FY 1998 modification as a new agreement
    because it was associated with the original FY 1997 effort and the FY 1998
    modification was funded with FY 1998 appropriated funds; there were no funds
    available for COSSI projects in FY 1998.

    Management Comments. DUSD (S&T) stated that the report was inaccurate
    in identifying that four 4 of 30 FY 1997 COSSI projects transitioned or will
    transition to Stage 2. DUSD (S&T) stated that 7 projects had transitioned or
    will transition:

           -   MILSTAR Antenna Control Unit,

           -   Discontinuous Reinforced Aluminum,

           -   Guardrail Computer Replacement,

           -   Mini-Mutes Replacement Processor,

           -   Movement Tracking System,

           -   Data Distribution Kits,

           -   Health and Usage Monitoring System for CH-53 and SH-60
               Helicopters.

    DUSD (S&T) also listed seven other COSSI projects that are likely to transition.

    Audit Response. The draft report identified 4 of 30 FY 1997 COSSI projects
    that had transitioned or would transition to Stage 2 production. The
    four projects included the Versa Module Europa Contingency Antenna Position
    Control Unit (MILSTAR Antenna Control Unit), Mini-Mutes Replacement
    Processor, Movement Tracking System, and the Data Distribution Kits. The


                                         50
Discontinuously Reinforced Aluminum did not result in a direct procurement by
DoD, but rather enabled a subcontractor to sell larger aluminum sheets to its
prime contractor for the F-16 aircraft. In processing the final report, we
conducted discussions with the responsible project manager for the remaining
two projects. The Helicopter Usage Monitoring and Diagnostic (referred above
as the Health and Usage Monitoring System) for CH-53 and SH-60 Helicopters
program was issued a FAR Part 12 contract in January 2001 for the CH-53
portion only; the SH-60 portion remains in Stage 1. The Guardrail Computer
Replacement was not pursued because the technology was obsolete. The report
was revised to show that three other projects were completed since the end of
the audit in September 2000.

In preparing the final report, we reviewed the seven other COSSI projects that
DUSD (S&T) believed were likely to transition. We conducted discussions with
either the contracting officer or the project manager and found that one project
will be procured under a FAR Part 15 contract, one project will be incorporated
in the existing contract as an engineering change proposal, one project will be
procured under a General Services Administration contract, one project will be
introduced through a depot modernization effort, and three projects had no
funding available for production procurement.

Management Comments. DUSD (S&T) stated that Table 2 should show 2 of
5, instead of 2 of 3, Army projects for FY 1999.

Audit Response. The two additional projects included in management
comments were the Low Cost First and Second Stage Compressor Blades for the
AFT 1500 Engine and a modification to the Switchable Eyesafe Laser
Rangefinder Designator project (Agreement DAAB07-97-9-D615). The Low
Cost First and Second Stage Compressor Blades for the AFT 1500 Engine was
awarded on September 29, 2000; therefore, we treated the project as an
FY 2000 award. Because the project was funded with FY 1999 appropriations,
DUSD (S&T) recorded the project as an FY 1999 effort. The other project was
the modification (modification number 5) to the Switchable Eyesafe Laser
Rangefinder Designator (Agreement DAAB07-97-9-D615); we treated this
effort as a modification to an existing project because it was not reported as a
COSSI project in the FY 1999 congressional report and the modification was
funded with FY 1998 funds. No COSSI funds were appropriated in FY 1998.

Management Comments. DUSD (S&T) stated that Table 3, “FY 1997 and
FY 1999 COSSI Projects with Inadequate Military Department Commitment
Letters,” should be revised. The draft report identified that in FY 1999 the
Army had two of three projects with inadequate letters; DUSD (S&T) stated that
the data should show zero of five.

Audit Response. The difference in the number of projects in FY 1999 was
based on when the project was recorded as previously discussed (fiscal year
funding of the project versus the fiscal year of the other transaction award).

The two Army projects that we determined did not have adequate Military
commitment letters were for the Integrated Mechanical Diagnostic Health Usage
system and the Sand Erosion Kits for the Apache. For the Integrated
Mechanical Diagnostic Health Usage system, the commitment letter stated, “the


                                    51
Project Management Office will provide planning necessary to incorporate the
HUMS technology into the Modernized Black Hawk program should the
technology prove cost effective and if funding remains available.” For the Sand
Erosion Kits, the commitment letter stated, “upon successful completion of
Stage 1 and within programmatic and funding constraints, this office will
consider incorporating the erosion protection system into the AH-64D Apache.”
We classified these commitment letters as inadequate due to their uncertainty
whether Stage 2 funds would be available.

Management Comments. DUSD (S&T) stated that notional time to complete
projects was listed as 1 to 2 years, but that this timeframe was too ambitious for
engineering activities, testing, and qualification. DUSD (S&T) stated that 2 to
3 years was more realistic.

Audit Response. We compared the COSSI projects to a performance period of
2 years because that was the parameter used by OSD. Table 5 reflects the
period of time that COSSI projects extended beyond the initial negotiated
period.

Management Comments. DUSD (S&T) stated that the report paragraph
pertaining to the Switchable Eyesafe Laser Rangefinder Designator is
misleading. The FY 97 project was designed to integrate and develop a single
laser design for the Kiowa Warrior. The FY 1999 project for the Apache
design to replace the existing laser suffered from low power output and parts
obsolescence. DUSD (S&T) stated that those are separate efforts.

Audit Response. The Switchable Eyesafe Laser Rangefinder Designator
project had significant effort changes. The other transaction agreement
statement of work was completely changed, including additional efforts to the
“Development of Improved Diode Array Stack” for the Kiowa, to incorporate
the requirement for “Air and Land Enhanced Reconnaissance and Targeting,” to
incorporate the “Apache Laser Upgrade Program,” subsequent revisions to the
for both the Kiowa and Apache work efforts, and later additions to the Apache
effort including adding tasks and splitting the effort into two phases. The
original Apache effort (modification number 5) was funded with Army
FY 1998 funds and was modified on September 28, 1998. Examination of this
project identified a departure from the original COSSI project of modernizing
the laser in the Kiowa Mast Mount. This project provides a good example of a
program’s deviating from the initial proposal and the need for management
oversight of COSSI projects.

Management Comments. DUSD (S&T) stated that the report suggested that
the selection criteria be changed to give greater weight to O&S projects with
near-term savings. DUSD (S&T) stated that O&S analysis ranks projects using
net present values and, accordingly, projected out-year savings are being
discounted and near-term savings are given greater weight than out-year
savings. DUSD (S&T) also stated that there is a recovery period and that no
savings can occur until the prototype is developed and inserted into a system. It
is only until the prototype is inserted into the system that savings occur and it is
unlikely to have significant savings during the first few years of a project.




                                     52
Audit Response. We were aware of the COSSI evaluation process using net
present value. The recent creation of the COSSI Steering Committee and the
establishment of a formal COSSI process for tracking operations and support
cost savings should assist management in identifying whether and when actual
savings materialize and should be the basis of initiating future management
corrective actions.

Management Comments. DUSD (S&T) stated that the report only looks at
prime contractor and does not give consideration to firms who joined with the
prime contractor to create a team. DUSD (S&T) stated that if the prime
contractor reaches out to a nontraditional firm to use commercial technology,
the program is achieving its objectives. DUSD (S&T) stated that of the
60 COSSI projects, 27 projects included at least one new contractor participant.

Audit Response. The audit report identifies that 20 of the 59 COSSI projects
included a nontraditional contractor. Table 9 identifies traditional,
nontraditional, and non-profit contractor participation obtained from either the
other transaction agreement or the contractor proposal. DUSD (S&T) is
correct; Table 9 does not reflect additional contractors who subsequently
participated in the projects because they would not have been identified in the
original agreements.

Management Comments. Page 22 lists Dynamic Private Virtual Networks as
an active project. This project was terminated.

Audit Response. Discussions with the Project Manager for this project
identified that the project was not terminated. The contractor issued the final
report for Stage 1 on November 16, 2000; subsequently, a decision was made
not to progress to Stage 2.

Management Comments. Page 22 states that Stage 2 for the Heads Up Display
is not budgeted. This is incorrect. Stage 2 is budgeted.

Audit Response. Discussions with the Project Manager in preparation of this
final report identified that the project was included in the budget as an
“unfunded requirement.”

Management Comments. Page 23 shows the Composite Trailer Van as an
active project. This was terminated.

Audit Response. This project was terminated in December 2000, after the
issuance of the draft report.

Management Comments. Page 24, second paragraph, delete “A Common
Interoperable” from the title of the project.

Audit Response. The title to this COSSI project was obtained from the Other
Transaction agreement issued on August 30, 1999.

Management Comments. Page 24 states that Stage 2 for the Integrated
Mechanical Diagnostic/Health Usage Monitoring System is not budgeted. This
is incorrect. Stage 2 is budgeted.


                                    53
Audit Response. Discussions with the Project Manager in preparation of the final
report identified that the project was included in the budget as an “unfunded
requirement.”

Management Comments. Page 24 states that Stage 2 for the Sand Erosion Resistance
Kits is not budgeted. This is incorrect. Stage 2 is budgeted.

Audit Response. Discussions with the Project Manager during preparation of the final
report identified that the project is not budgeted.

Management Comments. The “Switchable Eyesafe Laser Rangefinder/Designator for
the Apache” should be added as a FY 1999 project.

Audit Response. The Switchable Eyesafe Laser Rangefinder/Designator for the
Apache was identified as a FY 1997 project because this modification effort was an
addition to an existing FY 1997 COSSI project, was not reported as a COSSI project in
the FY 1999 congressional report, and the modification was funded with FY 1998
funds. No COSSI funds were appropriated in FY 1998.

Management Comments. The “Portable Engine Test Cell Capability for CH-57 and
MH-57 Helicopters” should be listed as an FY 1999 project.

Audit Response. This project was listed as an FY 2000 effort because the other
transaction agreement issued by the U.S. Army Aviation and Missile Command
identified the agreement effective date of October 5, 1999, which is FY 2000.

Management Comments. The Army FY 2000 projects on page 24 should be:

•   Guardrail Common Sensor Replacement Receivers.

•   Install, Integrate, and Support COTS NDI Displays, Digital Map, Stores
    Management System, and IR Suppressor to the OH-58DI.

•   Low Cost AGT1500 Compressor Blades (DAAE07-00-9-0002)
Audit Response. The audit listed the COSSI projects by the fiscal year in which the
prototype other transaction agreement was issued (awarded) by the responsible
organization. DUSD (S&T) listed projects by the fiscal year in which the project was
funded. As a result, there are differences in the categorization of individual projects by
fiscal year in this report. The draft audit report did not include the agreement for the
Low Cost AGT1500 Compressor Blades because this agreement was issued on
September 29, 2000, after the audit field work. We have revised the report to include
this agreement as an FY 2000 project.

Management Comments. On page 26, the words, “Commercially Based Processing
for E2C/C2A” should be replaced with “Blade Inspector Kit for E2C/C2A”.

Audit Response. The title of “Commercially Based Processing for E2C/C2A” was
obtained from the other transaction agreement. We modified the title for this
agreement to include Blade Inspector Kit for E2C/C2A.




                                           54
Management Comments. Page 32, the Network Centric Meteorological/
Oceanographic Device (METOC), N00039-00-9-4000 should be added to the list of
projects resulting from the FY 1999 solicitation.

Audit Response. The audit report was revised to reflect this FY 2000 award.

Management Comments. Page 31, the Acoustic Emission for Periodic Inspection of
Composite Pressure Vessels, N00024-00-9-4122 should be added as a project resulting
from the FY 2000 solicitation.

Audit Response. The audit report was revised to reflect this FY 2000 award (through
a subsequent modification, the agreement number was changed to N00024-00-9-4136).




                                         55
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)
Deputy Under Secretary of Defense (Science and Technology)
Director, Defense Research and Engineering
Director, Defense Procurement

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Commander, Army Materiel Command
Commander, Aviation and Missile Command
Commander, Communications and Electronics Command
Commander, Tank-Automotive and Armaments Command
Commander, Combined Arms Support Command
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Commander, Naval Air Systems Command
Commander, Naval Sea Systems Command
Commander, Space and Naval Warfare Systems Command
Commanding General, Marine Corps Systems Command
Naval Inspector General
Auditor General, Department of the Navy
Inspector General, Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Commander, Aeronautical Systems Command
Commander, Air Force Materiel Command, Electronic Systems Command
Commander, Ogden Air Logistics Command
Commander, San Antonio Air Logistics Command
Auditor General, Department of the Air Force




                                         56
Non-Defense Federal Organization

Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         57
Office of the Secretary of Defense Comments




                      59
60
61
Final Report
Reference




               62
     Final Report
      Reference




     Page 11




63
Final Report
Reference




Page 22



Page 22


Page 23


Page 24


Page 24


Page 24




Page 25




Page 26


Report
revised
page 32


Report
revised
page 31




               64
     Final Report
      Reference


     Page 37



     Page 38


     Page 42

     Page 42

     Page 42




65
66
     Final Report
      Reference




     Revised


     Revised




67
68
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DoD, produced this report. Personnel of the Office of the
Inspector General, DoD, who contributed to this report are listed below.

Thomas F. Gimble
Raymond A. Spencer
Roger H. Florence
Rudy Noordhuizen
Gary B. Dutton
Karen J. Lamar
Stacey L. Kreinbrook
Mandi L. Markwart
Trisha L. Staley
Jacqueline N. Pugh




                                  58
